<html>
<title> - INDIAN ENERGY AND ENERGY EFFICIENCY</title>
<body><pre>[Senate Hearing 111-430]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-430
 
                  INDIAN ENERGY AND ENERGY EFFICIENCY

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 22, 2009

                               __________

         Printed for the use of the Committee on Indian Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
56-321                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                      COMMITTEE ON INDIAN AFFAIRS

                BYRON L. DORGAN, North Dakota, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
DANIEL K. AKAKA, Hawaii              TOM COBURN, M.D., Oklahoma
TIM JOHNSON, South Dakota            MIKE CRAPO, Idaho
MARIA CANTWELL, Washington           MIKE JOHANNS, Nebraska
JON TESTER, Montana
TOM UDALL, New Mexico
AL FRANKEN, Minnesota
      Allison C. Binney, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 22, 2009.................................     1
Statement of Senator Barrasso....................................     2
Statement of Senator Cantwell....................................     3
Statement of Senator Dorgan......................................     1
Statement of Senator Franken.....................................     7
Statement of Senator Johanns.....................................     6
Statement of Senator Murkowski...................................     4
    Prepared statement...........................................     5
Statement of Senator Udall.......................................     6

                               Witnesses

Gray, Hon. James Roan , Chairman, Indian Country Renewable Energy 
  Consortium Board of Directors; Chairman, Osage Nation..........    29
    Prepared statement...........................................    31
Herrera, Hon. Steve, Tribal Council Member, Southern Ute Indian 
  Tribe; accompanied by Tom Shipps, Legal Advisor................    37
    Prepared statement...........................................    39
Levings, Hon. Marcus, Chairman, Three Affiliated Tribes of the 
  Fort Berthold Reservation; Secretary, Council of Energy 
  Resource Tribes (CERT).........................................     8
    Prepared statement...........................................    10
Sampson, Jr., Hon. Ralph, Chairman, Yakama Nation................    41
    Prepared statement...........................................    43


                  INDIAN ENERGY AND ENERGY EFFICIENCY

                              ----------                              


                       THURSDAY, OCTOBER 22, 2009


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:15 p.m. in room 
628, Dirksen Senate Office Building, Hon. Byron L. Dorgan, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. Let me thank my colleagues for dispensing of 
those two items of business. And let me say, as we begin this 
process once again, this Committee is not going to be in the 
business of trying to recognize what is an Indian tribe or who 
belongs to an Indian tribe or who doesn't, or who should we 
recognize as a tribe. That is not something I think we should 
routinely do. These two cases I think were unique.
    And now I will close the business meeting formally, and we 
will open the hearing. Let me describe, if I might, the purpose 
of the hearing today.
    This hearing is about Indian Energy and Indian Energy 
Efficiency. Today's hearing follows up on an Indian energy 
hearing that we held on May 1st, 2008. And at that hearing, the 
Committee received testimony on the obstacles that Indian 
tribes face in developing energy resources. We are now focused 
on trying to find solutions to those problems. Following the 
May 1st hearing, the Committee met with tribes from across 
Indian Country on energy issues, worked with the Administration 
to try to improve implementation of Indian programs, and now we 
are holding this hearing today.
    Vice President Barrasso--excuse me, Vice Chairman----
    [Laughter.]
    The Chairman. I want to elevate my colleague here.
    Vice Chairman Barrasso and I released an Indian Energy and 
Energy Efficiency concept paper. We also announced a series of 
Indian energy roundtables to discuss the concept paper. Our 
staff have conducted eight roundtables throughout Indian 
Country. We have done that because we believe consultation is 
the hallmark of this Committee in our work with the tribal 
governments around the Country.
    The energy roundtables were designed to engage Indian 
leaders, tribal members and their energy partners to discuss 
the concept paper. This hearing is another step. The concept 
paper identified three major obstacles: number one, antiquated 
laws and cumbersome regulations; number two, the lack of tribal 
access to the transmission grid; and number three, the lack of 
available financing and incentives for investment for Indian 
tribal energy projects.
    As I said before, there is substantial energy available on 
Indian lands across this Country. Too little of it is being 
developed because there are cumbersome procedures and all kinds 
of roadblocks. We want to find a way to unlock the opportunity. 
Nowhere in this Country is there a greater need for the jobs 
that will come from substantial and robust economic development 
from these energy resources.
    And yet, what we have discovered is, in our experience 
working with the Three Affiliated Tribes' Reservation in North 
Dakota, a 49-step process. You want to get a permit to drill an 
oil well on an Indian reservation, it is going to take you 
much, much, much, much longer than if you want to get a permit 
to drill anywhere else in my State. And I have shown the map 
previously of this circumstance. The circumstance has changed 
for the better, but that map shows all those little areas where 
wells have been dug, and that middle part is the Indian 
reservation. You will see there is much, much more activity 
north and south and west and much less activity on the Indian 
reservation.
    Why? Because there is less oil on the reservation? No, not 
at all. It is much harder to drill there, because you have to 
go through a long process with the Interior Department, I 
believe four separate agencies in the Interior Department, to 
get a permit to drill for oil.
    It ought to be as easy to get a permit to drill for oil on 
that Indian reservation as it is to the west of it, the north 
of it and the south of it. That is what we need to fix. Now, 
Chairman Levings is one of the witnesses today, and he very 
much, for his tribe, wants robust development, just as all of 
his neighbors do around him. That was almost blank at the first 
part of this year on the Indian reservation. We are making a 
little progress. But there is much more to do.
    So let me say to my colleague, Senator Barrasso, I think 
the paper that we have put out, it is a working paper, it has 
been a good start. I look forward to the witnesses today at 
this hearing to talk about their view of this and what we 
should do to proceed to move forward.
    Senator Barrasso, do you want to comment?

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. I would like to do that, Mr. Chairman, 
and I want to thank you for holding this very important hearing 
on one of really this Committee's highest priorities. Earlier 
this year, I met with the Joint Business Council of the Eastern 
Shoshone and Northern Arapaho Tribes in Fort Washakee, Wyoming. 
Tribal leaders emphasized to me and to our staff, our combined 
staff, how important energy development is to the economy of 
the Wind River Indian Reservation.
    Wyoming, as is North Dakota, is very blessed with abundant 
resources, including energy resources, that this Country 
desperately needs. This Committee can address key issues that 
will improve the Northern Arapaho and the Eastern Shoshone 
Tribes' ability to develop their energy resources, just as you 
are dealing with in North Dakota and in places around the 
Country.
    This will be win-win situation, improving economic 
development on the reservation and supplying important 
resources, Mr. Chairman, to the Nation. As you know, at this 
Committee's Indian energy round tables, tribes and individuals 
have made it clear that increasing Indian energy development is 
critical to improving the economies on our reservations.
    During the roundtables, the subject of NEPA paperwork was 
discussed again and again. I am referring, of course, to the 
National Environmental Policy Act. It is my understanding that 
Congress intended NEPA to apply to decisions relating to use on 
Federal public lands. Since then, Federal courts have 
interpreted NEPA to apply to decisions by the Secretary 
regarding Indian lands. We have been hearing that NEPA impacts 
the tribes' goals to develop their trust resources, including 
their energy resources.
    So it is my hope, Mr. Chairman, as it is yours, that we can 
address this, that we can address those many impediments that 
you have mentioned that prevents development on Indian lands. 
With that said, I want to thank our witnesses for being here. 
Many have traveled long distances. I look forward to the 
hearing today.
    The Chairman. Senator Barrasso, thank you very much.
    I want to recognize other Senators for brief comments. 
Senator Cantwell?

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. Thank you for 
calling this important hearing today.
    It is important that Indian Country be part of the debate 
on the need for a greener energy economy. I appreciate your 
efforts to construct an Indian energy bill that will maximize 
the efforts of tribes across our Country.
    I would also like to thank Chairman Ralph Sampson of the 
Yakama Nation for traveling all the way to Washington to give 
testimony here today. I would like to thank the rest of the 
witnesses.
    The Yakama Nation Reservation covers 1.3 million aces and 
contains numerous possible sources for renewable energy. The 
tribe is exploring biomass, wind, hydro resources and 
considering the potential for various renewable energy 
projects. The nation has recently started its own public 
utility district, and in order to produce and sell power to the 
reservation, making this work for the Yakama Nation.
    Indian Country has the potential to provide a huge amount 
of renewable resources. That potential needs to be tapped. At 
least 77 reservations have the potential for wind energy 
production, and many others utilize biomass and solar. 
Nationally, 14 percent of Indian households on reservations 
have no access to electricity. This clearly must change.
    These renewable resources hold the potential to both raise 
the living standards and the quality of life for those Indian 
households currently without access to electricity and also to 
contribute to our broader national energy and climate policies. 
The development of renewable resources holds the key, I 
believe, to a green economy and sources of millions of jobs for 
Americans. I commend Chairman Sampson and the Yakama Nation for 
their leadership and foresight on this issue. I look forward to 
hearing his testimony and that of the other witnesses, and 
working with you, Mr. Chairman, on moving legislation from this 
Committee.
    Thank you.
    The Chairman. Thank you very much.
    Senator Murkowski?

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. I appreciate 
the opportunity to say a few comments today and for your 
leadership and yours, Senator Barrasso, on this issue. When we 
passed the Energy Policy Act back in 2005, I think we were all 
happy that it contained the provision in it that it did, Title 
V, which created the offices within Department of Interior and 
Energy that was designed to help Natives and energy 
development. The provisions that authorized up to $2 billion in 
loan guarantees for both fossil and renewable energy 
development on Native lands, these were for reservations both 
on the lower 48 and Alaska Native Corporation lands up in 
Alaska.
    But I have been disappointed in how the Act has been 
implemented thus far. While Interior does have an Indian Energy 
and Economic Development Office, the Office hasn't encouraged 
tribes to enter into mineral leases and other energy 
development agreements. At Energy, the Office of Indian Energy 
Policy was established, but then wasn't funded for a period of 
years. While the Office did provide a few grants, DOE still has 
not implemented its Indian Loan Guaranty program.
    We recognize, I think, that the aid to Indians and Natives 
nationwide to help them develop the likely, very huge energy 
resources that are on their land, whether it is oil or gas or 
coal, oil shale, you have the wind, solar, geothermal, it is 
just about everything can be very helpful. But the aid that has 
been made available has been not only underwhelming but almost 
non-existent. I certainly appreciate and support the efforts to 
try to remedy the deficiencies that we have discovered since 
that Energy Act in 2005, whether we do it as a standalone bill 
or as part of additions to an energy bill that has already been 
considered by the Energy Committee and is waiting consideration 
by the Floor.
    There are some things that you have laid forth, Mr. 
Chairman, in the paper that you have put forth. I support many 
of them, such as the issue of transmitting siting, making sure 
that our tribes have more ability to influence these 
transmission siting decisions across the reservations. Many of 
the other provisions I certainly support.
    I do want to make sure that the provisions extend aid to 
Natives and their Native corporation representatives in Alaska. 
I think that should be easy to accomplish and we want to work 
with you on that.
    I have more extended comments that I want to include in the 
record. I probably won't be able to stay for the whole hearing, 
because I am heading off to our largest convention of Alaska 
Natives, which is being held tomorrow morning. So if you see me 
leave early, it is not because of lack of interest in this 
subject. We want to work with you and support you.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Murkowski follows:]

  Prepared Statement of Hon. Lisa Murkowski, U.S. Senator from Alaska

    In 2005 when we worked to pass the Energy Policy Act, I believe we 
were both happy that the bill contain in Title V, provisions that 
created offices inside the Departments of Interior and Energy intended 
to help Natives in energy development on Native lands--reservations in 
the Lower 48 and on Alaska Native corporation lands in Alaska.
    I have been very disappointed with how the Act has been implemented 
so far. While Interior does not have an Indian Energy and Economic 
Development Office, the Office has not really encouraged tribes to 
enter into mineral leases and other energy development agreements.
    At Energy, the Office of Indian Energy Policy was established, but 
not funded for several years. While the office did provide a few grants 
this past year, DoE still has not implemented its Indian loan guarantee 
program.
    The aid to Indians and Natives nationwide to help them develop the 
likely huge energy resources on their lands: oil, gas, coal, and oil 
share, and wind, solar, geothermal, biomass and in some cases hydro, 
has been not only underwhelming, but almost non-existent.
    I certainly support your efforts to try to remedy the deficiencies 
discovered since 2005, either in a standalone bill or as part of 
additions to an energy bill that has already been reported by the 
Energy Committee and is still awaiting floor consideration.
    There are few complexities. Given that we have already moved in 
Energy to separate part of the loan guarantee programs from DoE and 
give them a new Clean Energy Development Administration, it is hard to 
know how exactly to mesh these changes until we see if CEDA is going to 
pass, or if the loan program is going to remain at DoE.
    I personally would like to see more grant aid available for energy 
development on reservation and Native corporation lands. I agree that 
generating capital to finance and build energy projects is often hard 
on Indian lands since the tax incentives we generally provide to the 
private sector for energy development don't translate well in Indian 
Country and in Alaska.
    Obviously finding the money to pay for those grants is the big 
program, since a template for the grants was approved in 2007 in the 
Energy Independence and Security Act when we created the Renewable 
Energy Deployment Grant program. We just haven't funded it, either 
through appropriations or in last winter's stimulus bill, or returned 
it to its intended national focus. Maybe the Renewable Electricity 
Standard that is pending approval in the energy bill may help slightly. 
But I don't think it will be the full answer.
    I strongly support giving Indian tribes more abilities to influence 
transmission siting decisions across reservations. And I support many 
of the other suggestions in your' and Senator Barrasso's concept paper 
this summer. I do want to make sure that the provisions extend such aid 
to Natives and their Native corporation representatives in Alaska, but 
that should be easy to accomplish. I also want to make sure they do not 
create logistic problems for Indian allotees in the Lower 48 given the 
terms of the existing Indian Mineral Development Act.
    I thank the Chairman and the Vice Chairman for your hard work on 
these issues. I will leave early to catch a flight to Alaska to address 
the annual Alaska Federation of Natives, our largest gathering of 
Alaska Natives. So if you see me leave early, it is not because of a 
lack of interest in this subject. I look forward to working with you on 
these important issues. Thank you, Mr. Chairman.

    The Chairman. Thank you very much.
    Senator Udall?

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you very much, Mr. Chairman, and 
thanks for holding this important hearing.
    Tribal lands comprise approximately 5 percent of the 
Nation's land base and contain 10 percent of the Nation's 
energy resources. They also provide tremendous promise to help 
the United States meet its renewable energy goals. According to 
DOE, tribal wind potential can provide 20 percent of the 
installed electric power that was generated in the United 
States in 2004. Tribal solar energy potential can provide 4.5 
times the installed electric power that was generated in the 
United States in 2004.
    In addition, the land of Indian tribes contain tremendous 
amounts of sustainable biomass material. But really, the point 
here is tribes need the assistance to do this and to move 
forward with development. We made an attempt, as Senator 
Murkowski has said, in Title V of the 2005 Energy Bill. But 
what we have done has been inadequate. A title was established 
at the Department of Interior and Department of Energy to 
assist tribes in energy development, but the mandate has only 
been partially implemented. DOI set up an Office of Indian 
Energy and Economic Development to provide technical assistance 
and loan guaranties to tribes. The loan guaranty program is 
greatly under-funded. The Department of Energy set up an Office 
of Indian Energy Policy and Programs to assist tribes, but the 
office was not funded for two years, and has only had a 
director with no staff.
    Also, none of the Recovery Act money was dedicated to these 
types of tribal projects. So we need to do better by the tribes 
in terms of assisting them with the development of their energy 
resources.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Senator Udall, thank you.
    Senator Johanns?

                STATEMENT OF HON. MIKE JOHANNS, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Johanns. Mr. Chairman, thank you very much. Let me 
just say, as that map was displayed, I think that tells the 
story. Obviously, something is not working here in a rather 
magnificent way. You have all of this development all around 
the Indian reservation, and yet there on the reservation, the 
development does not occur.
    Bottom line is, we want development to occur. The tribes 
want development to occur. We are in agreement on that. I think 
we are also in agreement that it has to be the whole host of 
possibilities, not just drilling for fossil fuels, wind and 
solar, and maybe nuclear, a whole host of opportunities exist 
if we can somehow figure out the right combination here.
    I must admit, I am becoming more and more convinced that it 
really is all about implementation and how we somehow overcome 
the roadblocks that exist, whether they are financial, whether 
they are just part of the culture of the process that you have 
to go through. So my hope is today that as you testify, and I 
thank the witnesses for being here, that maybe you give us a 
little bit of insight on where are those speed bumps, where are 
the absolute roadblocks, where is it impossible to move 
forward, and see if there is something that we can do in a 
legislative way that will help with that implementation 
problem.
    Let me just wrap up and say to the Chairman and the Ranking 
Member, I really do appreciate their leadership in bringing 
this forward. I think this is such a key economic opportunity. 
Those who know my background know that I am not a fan of 
gambling. It is too dependent on the economy. When things are 
going well, there is a financial stream there. When things 
aren't going well from an economic standpoint, people lose 
their jobs. They are out of work. At a time when they most need 
that employment, that employment is in jeopardy.
    So I am hoping that this is an opportunity for us to try to 
improve economic circumstances on our reservations across the 
Country. Thank you.
    The Chairman. Thank you very much.
    The Senator from Minnesota?

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Thank you, Mr. Chairman, thank you, Vice 
Chair Barrasso, for holding this very important hearing.
    I want to thank the witnesses for coming, and I want to 
apologize. I have to leave in 10 minutes for a meeting on 
health care.
    Back at home, a number of our tribes have been implementing 
advanced energy strategies. I want to thank the Chairman, who 
has been very supportive of these initiatives in his other 
roles as Chairman of Energy and Water Appropriations, of that 
subcommittee. One example can be found on the White Earth 
Reservation. The White Earth Tribe has developed a local 
alternative energy initiative. They have worked out agreements 
with some of our rural electric cooperatives and farmers in the 
region. The result is a 20 kilowatt wind turbine at Waubun, 
Minnesota, and they have plans to expand production and feed 
energy into the grid.
    Part of White Earth's integrated strategy includes reducing 
energy consumption through conservation and distributive energy 
projects. They have also started a solar training program on 
the reservation to train members in the use of solar power 
installations in their homes.
    But this isn't just isolated in Minnesota to the White 
Earth Tribe. Across Minnesota, tribes are working with local 
municipalities to develop regional as well as tribal energy 
plans. I am sure the folks at White Earth and other Minnesota 
tribes would love to highlight their work and provide useful 
insights like you, maybe at a roundtable in Minnesota. But that 
is why we are here today, to figure out ways to assist tribes 
in developing and producing their own energy. This is critical 
for so many reasons. A few weeks ago I attended a tribal summit 
in Shakopee, Minnesota. Over 23 tribes came together to discuss 
ways in which Indian Country can finally realize self-
determination. Most of the summit focused on ways to rebuild 
what attendees referred to as the infrastructure of nationhood. 
I think that is a very apt phrase, the infrastructure of 
nationhood. I think we can all agree that energy is one of the 
primary ingredients of infrastructure.
    I look forward to hearing from the panelists. My staff will 
remain here and take notes. I hope to get back from this 
meeting. We look forward to hearing from you on how we can best 
promote tribal energy and how we can best remove barriers to 
the development of that energy.
    In particular, I am interested in the panel's view on how 
to tweak our current energy laws to encourage more sustainable 
energy production, increase access to transmission lines, help 
tribes gain access to financing for clean energy projects. I 
look forward to working with both the Chair and the Vice Chair 
on this important legislation, and thank you again for calling 
the hearing, and thank you for your testimony.
    The Chairman. Thank you very much.
    We have four witnesses today. We appreciate your patience 
and appreciate very much your being here.
    The first is the Honorable Marcus Levings, who is the 
Chairman of the Three Affiliated Tribes in North Dakota. He is 
also Secretary of the Council of Energy Resource Tribes 
Executive Board. The Council of Energy Resource Tribes was 
founded in 1975. They participated in the development of tribal 
provisions on the Indian Mineral Development Act of 1982 and 
the Energy Policy Act of 2005 and the Energy Independence and 
Security Act of 2007.
    Chairman Levings has been deeply involved in energy 
production and a wide range of energy issues. He is a real 
leader on these issues and I appreciate his coming to 
Washington today. I was with Chairman Levings on Saturday on 
his reservation, where we did a groundbreaking for a health 
clinic that was promised to the tribe 60 years ago, when the 
Elbow Woods Hospital was submerged underwater as a result of 
the dams that were placed on the Missouri River. The Elbow 
Woods Hospital was gone, it was underwater. And it was promised 
that it would be replaced. Sixty years later, we had a 
groundbreaking for what will be a wonderful health care clinic. 
That is thanks to Chairman Levings' insistence and 
determination.
    Mr. Chairman, thank you for being here. You may proceed.

 STATEMENT OF HON. MARCUS LEVINGS, CHAIRMAN, THREE AFFILIATED 
                  TRIBES OF THE FORT BERTHOLD 
           RESERVATION; SECRETARY, COUNCIL OF ENERGY 
                     RESOURCE TRIBES (CERT)

    Mr. Levings. Good afternoon, Chairman Dorgan, Vice Chairman 
Barrasso and members of the Committee on Indian Affairs. My 
name is Marcus Dominick Levings. My Hidatsa name is eh-Bah-Dah-
Gish, White Headed Eagle. I am the elected tribal chairman of 
the Three Affiliated Tribes of the Fort Berthold Indian 
Reservation in North Dakota, with 11,000 duly enrolled members.
    In June of 2009, I was elected Secretary of the Council of 
Energy Resource Tribes on behalf of the Three Affiliated Tribes 
and 57 member Indian tribes. I am pleased to submit for the 
Committee's consideration the following statement regarding 
energy development, environmental stewardship and job creation 
in Indian Country.
    Today's hearing follows the May 2008 hearing entitled 
Indian Energy Development and no fewer than eight Indian energy 
roundtable to solicit the views and comments of Indian tribes 
on the committee's Indian energy concepts paper, formally 
issued in September. American Indian energy resources hold 
enormous potential to create tens of thousands of jobs, good-
paying jobs, generate substantial revenue for the tribal owners 
and aid in development of tribal economies. The Three 
Affiliated Tribes and our mineral allottees reside on what is 
commonly known as the Bakken Shale clay. This mineral play has 
the potential to contribute vast amounts of crude oil and 
natural gas to the national economy, and will vastly improve 
the economic and quality of life to our enrolled members who 
have historically been one of the poorest populations in the 
state of North Dakota.
    American Indian tribes in the lower 48 States, especially 
those in the Rocky Mountain West, own an enormous amount of 
energy resources. In addition to enormous amounts of non-
renewable resources, primarily oil, natural gas, coal and coal-
bed methane, Indian tribes have a significant development 
potential in renewable sources of energy, such as wind, solar, 
hydro, biomass, geothermal and others.
    In September 2009, CERT submitted to the Committee its 
views and analysis of the May 2009 Indian Energy Concepts 
paper. Attached to this statement is a copy of those views and 
analysis. I would like to share a few of the issues that the 
Three Affiliated Tribes have with regard to the Indian Energy 
Concepts paper. In the interest of time, I will focus on just 
three of these issues.
    First, the Three Affiliated Tribes have actively engaged 
our Federal energy industry partners to expedite the leasing 
and permitting practices that have thus far stymied efforts to 
fully develop the energy resources of the Fort Berthold 
Reservation. We are extremely grateful to Chairman Dorgan, 
along with Senator Conrad and Congressman Pomeroy, who have 
been instrumental in installing the virtual One Stop Shop to 
consolidate the current 49-step process it takes to develop 
mineral resources on Indian lands.
    We have begun to see the benefits of this process. The 
regulatory and administrative burden upon mineral development 
on Fort Berthold caused considerable economic harm, as tribe 
and mineral allottees were unable to benefit fully from the 
period of high crude prices that we experienced not more than 
12 months ago.
    While we are grateful for the assistance of the Indian 
Affairs Committee, it is also imperative that such fixes to the 
leasing and permitting process on Indian lands also include all 
agencies that have a duty to the Indian trust beneficiaries. It 
is not just the Bureau of Indian Affairs that has a trust 
responsibility to our tribes and our enrolled members, but the 
entire Federal Government.
    The Bureau of Land Management, the Environmental Protection 
Agency and others should also be placed in the one-stop shops, 
as they have a vital and important role in the development of 
trust minerals. It is not just t ability to drill an oil and 
gas well that is at issue, as Indian Country is subject to an 
enormous body of law and regulation that make it very difficult 
to develop without effective and timely interagency 
communication and cooperation. NEPA, the Clean Air Act, the 
Clean Water Act and other laws make Indian energy development a 
costly and time-consuming endeavor that serves as the principal 
deterrent for much of the private industry to enter Indian 
Country.
    Second, the lack of suitable infrastructure in Indian 
Country also has a tremendous negative impact on the ability to 
develop all our energy resources: oil, gas and renewable energy 
resources. The lack of suitable roads, electrical transmission 
lines and oil and gas gathering systems and pipelines creates 
an enormous economic barrier to our development.
    It is imperative that the tribes, Congress and industry 
look to cost-effective solutions to allow the level of 
development that can only improve our overall natural energy 
resources. Too often, we have been forgotten when this 
Country's infrastructure is improved through existing Federal 
funding and are only encountered when Indian Country has a 
resource to offer the rest of the Nation. We are respectfully 
asking and reminding this Committee that Indian energy 
development must include as a base the improvement of the 
infrastructure in Indian Country that is so often taken for 
granted in the rest of the United States.
    Finally, I would like to address the issue of adequate 
staffing in all agencies that have a role in development of 
Indian energy in Indian Country. It is too often the occurrence 
in Federal agencies that take a lead role, i.e., the Bureau of 
Indian Affairs, to recruit, hire and promote individuals who do 
not have the education and/or experience in the area of energy 
development, particularly in the highly specialized area of 
Indian Country. Many of the bureaucratic delays and legal 
entanglements are caused by individuals who could not even fill 
a similar position in private industry. Yet we are forced to 
work with those individuals as the principal agents of our 
Federal trustee.
    Often, our tribal members encounter those same individuals 
in training sessions where, given their title and 
responsibilities, should in fact be teaching the same courses. 
We cannot and should not be subject to the standard Federal 
merry-go-round where current and former Federal employees are 
merely promoted or transferred to important positions where 
their decisions impact the economic futures of Indian tribes 
and our allottees.
    The Federal Government should have the same employment 
standards as the very industry which they are hired to regulate 
upon. The fiduciary duty of the Federal Government as our 
trustee demands no less.
    Mr. Chairman, that concludes my prepared statement, and I 
again thank you for the opportunity to present the views of 
CERT. I would be happy to answer any questions you may have. 
[Phrase in native tongue.]
    [The prepared statement of Mr. Levings follows:]

 Prepared Statement of Hon. Marcus Levings, Chairman, Three Affiliated 
 Tribes of the Fort Berthold Reservation; Secretary, Council of Energy 
                         Resource Tribes (CERT)

    Good afternoon Chairman Dorgan, Vice Chairman Barrasso, and members 
of the Committee on Indian Affairs. Before addressing the issues of 
Indian Energy and Energy Efficiency, I want to thank you for your 
strong leadership in helping Indian tribes and their members meet the 
many challenges they face including health care, law enforcement, 
unemployment, and others.

Background on the Council of Energy Resource Tribes
    I am Marcus Levings, Chairman of the Three Affiliated Tribes of the 
Fort Berthold Reservation in North Dakota. In June 2009 I was elected 
Secretary of the Council of Energy Resource Tribes (CERT). On behalf of 
the 57 member Indian tribes of CERT, I am pleased to submit for the 
Committee's consideration the following statement regarding energy 
development, environmental stewardship, and job creation in Indian 
Country.
    CERT was founded in 1975 by tribal leaders when our country was in 
the midst of what was then known as the ``Arab Oil Embargo,'' put in 
place by the Organization of Petroleum Exporting Countries in response 
to America's support for Israel in the 1973 Arab-Israeli War. The 
embargo caused higher prices for heating oil and gas and contributed to 
the economic recession that lasted for the ensuing 7 years.
    Back then, our national leaders promised that we would ``end our 
dependence on foreign oil'' and return America to a position of 
unquestioned strength in the world. Nearly, 35 years later our 
dependence on foreign sources of energy has never been greater.
    The core mission of CERT is to support member tribes enhance their 
management capabilities and prudent development of their energy 
resources to build sustainable economies and strong political 
institutions.

The Historic Role of the Committee in Energy Legislation
    For many years, the Committee on Indian Affairs has recognized the 
important economic role of renewable and non-renewable energy resource 
development in Indian country.
    Beginning in 1999, the Committee worked with the Indian Tribal 
Energy Network in conceptualizing and drafting what became the Indian 
Tribal Energy Development and Self-Determination Act of 2005. This 
comprehensive Indian energy law was included in the massive Energy 
Policy Act of 2005.
    This was followed by the Committee's key role in fashioning Indian 
provisions in the Energy Independence and Security Act of 2007, as well 
as important Indian amendments that were included in energy legislation 
considered earlier this year by the Senate Energy and Natural Resources 
Committee. \1\
---------------------------------------------------------------------------
    \1\ The EPAct of 2005 (Pub.L. 109-58) and the EISA 2007 (Pub.L. 
110-240) both contain provisions favorable to Indian tribal energy 
development and environmental management.
---------------------------------------------------------------------------
    Today's hearing follows the May 2008 hearing entitled ``Indian 
Energy Development,'' and no fewer than 8 Indian Energy Roundtables to 
solicit the views and comments of Indian tribes on the Committee's 
Indian Energy Concepts Paper formally issued in September.

The Economic Importance of Indian Energy Development
    American Indian energy resources hold enormous potential to create 
tens of thousands of good-paying jobs, generate substantial revenue for 
the tribal owners, and aid in the development of tribal economies. An 
often-overlooked aspect of Indian energy is that it helps satisfy the 
American economy's need for a reliable energy supply. The Southern Ute 
Indian Tribe in southwest Colorado, for instance, produces 1 percent of 
the natural gas that is used by the American people and American 
business. In less than 20 years, the tribe's gas operations have 
evolved to be among the most sophisticated in the country and are 
managed by the various tribally-owned energy companies.
    Based on information provided by the U.S. Department of the 
Interior's Office of Indian Energy and Economic Development (OIEED), in 
2007 energy and mineral resources generated over $574 million in 
royalty revenue paid to individual Indians and tribes. Moreover, income 
from energy and minerals has increased 260 percent since 2002. The 
OIEED expects these trends to continue and so does CERT.
    There are good reasons to be optimistic that Indian tribal energy 
development will continue to expand in other tribal communities. These 
reasons include the following:

        1. Enormous tribal reserves of oil, gas, coal, wind, solar, 
        geothermal and other resources;

        2. The likely long-term pricing environment for energy 
        products; and

        3. The enactment by Congress pro-production energy policies.

    The OIEED estimates that an additional 15 million acres of 
undeveloped traditional energy mineral resources and over 22 million 
acres of undeveloped renewable energy resources exist on individual 
Indian and tribal lands. If these estimates are correct, additional 
billions of dollars in revenue would likely be generated to the 
individual and tribal owners.
    More specifically, the OIEED's analysis finds that the potential 
remaining resources to be realized through new development on Indian 
lands reveal the following:

------------------------------------------------------------------------
              Commodity                       Potential Resource
------------------------------------------------------------------------
Oil                                   5.3 billion bbls
Gas                                   25 billion mcf
Coal                                  53.7 billion tons
Coalbed Methane                       12.7 million mcf
Wind energy                           535 billion kWh/year
Solar energy                          17,600 billion kWh/year
Woody biomas                          3 billion kWh/year
Hydroelectric                         5.7 million kWh/year
Geothermal                            21 million kWh/year
------------------------------------------------------------------------

    One merely witness the phenomenal success of the Southern Ute 
Indian Tribe, the Ute Tribe of the Uintah and Ouray Reservation in 
northeast Utah, and the Osage Nation in eastern Oklahoma to understand 
that American Indian energy resources, developed properly, can 
transform Indian economies and assist tribes in achieving real and 
lasting self-determination.

Tribal Energy Resources and the Pricing Environment
    American Indian tribes in the lower 48 states--especially those in 
the Rocky Mountain West--own an enormous amount of energy resources. 
With the current Federal restrictions on exploring for energy in the 
Great Lakes, the eastern portion of the Gulf of Mexico, the California 
coastline, and the Alaska National Wildlife Refuge (ANWR), Indian 
tribal resources and lands in the Rocky Mountain West present one of 
the most significant opportunities for domestic production in the 
United States.
    In what is now a dated analysis, in 2001 the U.S. Department of the 
Interior (DoI) estimated the total dollar value of energy produced from 
Indian tribal lands for the period 1934-2001 to be $34 billion. These 
revenues derived from 743 million tons of coal, 6.5 billion cubic feet 
of natural gas, and 1.6 million barrels of oil. In terms of undeveloped 
reserves and undiscovered resources, the DoI projected that Indian 
tribal lands could prospectively generate $875 billion, derived from 53 
billion tons of coal, 37 billion cubic feet of natural gas, and 5.3 
million barrels of oil.
    These projections were made in 2001 and in the intervening 8 years, 
the price of energy products has increased significantly. Present-day 
revenue projections would be nearly $1.5 trillion.

Enactment of New Energy Laws in 2005 and 2007
    On August 8, 2005, President Bush signed into law the Energy Policy 
Act of 2005 (Pub.L. 109-58) which included as title V the Indian Tribal 
Energy Development and Self-Determination Act. The new law authorizes a 
variety of Federal technical and financial assistance to participating 
Indian tribes and seeks to reduce administrative obstacles at the 
Federal level to encourage greater levels of energy development on 
tribal lands.
    This tribal energy law does not discriminate in terms of favoring 
renewable over non-renewable resources or vice versa. Instead, the law 
leaves the development decisions to the tribal owner and the market.
    Similarly, in 2007, Congress enacted and the President signed the 
Energy Independence and Security Act (``EISA'', Pub.L. 110-140) which 
contains significant opportunities for Indian tribes and tribal 
colleges to receive research, development, and production grants 
related to renewable and alternative energy development. The Act 
authorizes tens of billions of dollars for these purposes and 
represents the most significant energy research law to be enacted in 
years.

The American Recovery and Reinvestment Act of 2009
    In February 2009, President Obama signed into law the American 
Recovery and Reinvestment Act (ARRA). The ARRA included $16.8 billion 
for ``Energy Efficiency and Renewable Energy,'' a broad category that 
includes $3.2 billion for Energy Efficiency and Conservation Block 
Grants. The ARRA also provided $5 billion for the Weatherization 
Assistance Program, and $4.5 billion for Electricity Delivery and 
Energy Reliability. This latter program is related to expenses 
necessary to electricity delivery and energy reliability of the energy 
infrastructure energy storage research and development, demonstration 
and deployment, and facility recovery. In addition, $100 million is 
allocated for ``worker training.''
    The ARRA also provided $6 billion for the Innovative Technology 
Loan Guarantee Program.
    These funds are crucial because, in addition to enormous amounts of 
non-renewable resources, primarily oil, natural gas, coal, and coal bed 
methane, Indian tribes have significant development potential in 
renewable sources of energy such as wind, solar, hydro, biomass, 
geothermal, and others.
    Reliable information suggests that the vast majority of potential 
renewable energy projects in Native communities are modest in size and 
more akin to the community development scale than the commercial 
utility scale. As a result, most of these projects might only require 
an environmental assessment and not a full-blown environmental impact 
statement under the National Environmental Policy Act (NEPA). More 
often than not, these projects require Federal support to fund the 
construction costs in order for them to proceed to construction.

Proposal for a ``National Tribal Energy Efficiency Initiative''
    With the support of this Committee and the congressional 
appropriators, a ``National Tribal Energy Efficiency Initiative'' would 
(1) generate an enormous number jobs in the short-run and long-run; (2) 
be reasonable in terms of cost; (3) have superior environmental impacts 
in Indian country; and (4) produce greater economic benefits for 
virtually every Indian tribe and have the greatest impact on the tribes 
with the largest number of poor and working poor families.
    The initiative CERT has in mind would be something along the lines 
of a ``National Tribal Energy Efficiency Initiative'' that could fund 
virtually every Indian tribe. The initiative would be massive but, if 
properly structured, would maximize the use of local labor and local 
Indian contractors.
    In addition to home weatherization, the initiative could include 
all tribal government buildings and Federal facilities located on 
tribal lands. The high cost of heating and cooling because of poorly-
constructed and poorly-insulated buildings equipped with highly 
inefficient lighting and H-VAC systems erodes program budgets, reduces 
services and produces environments that are not healthy for workers or 
for people who use access the facilities. It would dramatically reduce 
the operating and maintenance costs for health clinics, hospitals, 
schools and tribal colleges, tribal administrative buildings, and other 
structures on tribal lands.
    The initiative would also have an immediate impact on the utility 
bills for heating for the most vulnerable Indian populations in the 
Northern tier of the country from the Pacific Northwest to Maine, the 
Tribes of the Four Corners Area, and the poor families of the Oklahoma 
Indian Tribes. And for the desert southwest Tribes, their weather 
related issues come in the summer months. Regardless of their 
geography, all of the Tribes have vulnerable populations: the elderly, 
infants and the disabled.
    In a relatively short period of years, the initiative would 
transform Indian Country from among the most energy inefficient to 
among the more energy efficient and would lead to better health, more 
efficient programs and more competitive tribal economies. The energy 
savings could be measured in real dollars because the good thing about 
energy efficiency is that the savings are not one-time occurrences but 
accrue year after year. Even a massive Federal expenditure in an 
initiative of this type would be repaid in savings in 3 to 5 years, and 
would continue for another 10 to 20 years, depending on building 
maintenance.
    For this initiative to succeed, the funding would need to be 
administered through an agency that is able to direct the money very 
quickly to each interested Indian Tribe. One way to expedite the 
funding process would be to convene regional ``pre-application 
workshops'' so interested and eligible Indian tribes could respond 
appropriately to the agency distributing the funding. If the funds were 
routed through the Administration for Native Americans (ANA) in the 
Department of Health and Human Services, that agency would do a superb 
job of fund distribution with minimal red-tape because it has a 
demonstrated ability to move money very quickly into tribal programs. 
The ANA has a network of regional and national technical assistance 
contractors already in place to provide the workshops and hands-on 
technical assistance to ensure every interested and eligible Indian 
Tribe has the best chance to access the program.
    In addition to CERT, there are other national Indian organizations 
that could be of assistance in mobilizing Indian contractors and the 
local pool of Indian labor such as the National Council on Tribal 
Employment Rights (NCTERO) which has a national network of local TERO 
offices that have data on the local workforce and the relationship with 
labor unions for training and apprenticeship programs, as well as data 
on local, Indian-owned companies. The National Center for American 
Indian Enterprise Development (NCAIED) has an excellent network of 
larger Indian and tribal construction companies as well as a network of 
major private sector companies, such as Home Depot, that might be 
included in such an initiative to supply the material needed for these 
activities.

Indian Energy Project Development
    The new energy laws were signed into law in 2005 and 2007 and the 
regulations to implement them are now in effect. For the past five 
fiscal years, the Congress has appropriated funds for the Department of 
Interior's Office of Indian Energy and Economic Development and the 
Department of Energy's Office of Indian Policy and Programs, both of 
which are charged with administering the new laws.
    Nonetheless, and as the Committee has identified in its Indian 
Energy Concepts Paper, many challenges to more vigorous energy 
development remain.

Responses to the Committee's Indian Energy Concepts Paper
    In September 2009, CERT submitted to the Committee its views and 
analysis of the May 2009 Indian Energy Concepts Paper. Attached to this 
statement is a copy of those views and analysis.

Conclusion
    Mr. Chairman, that concludes my prepared statement and I again 
thank you for the opportunity to present the views of CERT. I would be 
happy to answer any questions you may have.

Attachment

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Chairman Levings, thank you very much. We 
appreciate your being here.
    Next, we will hear from the Honorable James Roan Gray. He's 
the Chairman of the Indian Country Renewable Energy Consortium 
Board of Directors and Chairman of the Osage Nation.
    Mr. Roan Gray, we appreciate your coming to town to 
testify.

  STATEMENT OF HON. JAMES ROAN GRAY, CHAIRMAN, INDIAN COUNTRY 
             RENEWABLE ENERGY CONSORTIUM BOARD OF 
               DIRECTORS; CHAIRMAN, OSAGE NATION

    Mr. Gray. Good afternoon, Chairman Dorgan, Vice Chairman 
Barrasso, members of the Committee. I am Jim Gray, of the Osage 
Nation, Principal Chief. I would like to thank you for inviting 
me to present as Chairman of the Indian Country Renewable 
Energy Consortium today.
    Chairman Dorgan, I want to express special thanks to you 
and the Committee for the willingness to play a critical 
leadership role in developing a comprehensive concept paper 
setting forth important proposals to achieving our central, 
shared objective, making sure that we set an effective 
foundation for tribes and Native corporations to participated 
on a level playing field in this emerging green economy.
    The Consortium has presented more detailed written remarks, 
and I respectfully request they be made part of the hearing 
record.
    The Chairman. Without objection.
    Mr. Gray. Just generally speaking, I would just like to 
make some basic observations. I think the first is that 
unlocking the renewable energy potential throughout Indian 
Country is essential, and it is something that is not new. It 
is something that has been discussed for many years. Experts 
agree that somewhere between 10 to 15 percent of the wind 
potential resources are on Indian lands. And that percentage is 
doubled for solar.
    It is simply not possible, as the Administration 
recognizes, for the Nation to achieve our renewable energy 
goals that the President has laid out without the serious 
development of those resources in Indian Country. This is a 
sober reality.
    Second, there is a hunger for Indian Country to develop the 
renewable resources because it is consistent with our 
traditional values.
    Third, there are presently impediments to effective and 
prompt development of renewable energy resources on tribal 
lands. As a result, tribes are severely disadvantaged through 
really no fault of their own. The Consortium's principal goal 
is to even the playing field, so that those opportunities can 
be laid out working within their own structure or with private 
industry.
    Fourth, the Consortium recognizes that renewable energy 
development is a generational opportunity. We understand that, 
as I am sure you will agree, renewable energy development is no 
ordinary opportunity, but one that comes along every generation 
or so. It can be part of a solution to the grinding poverty 
that still exists on many tribal communities.
    Fifth, now is the time to act. The energy provisions in the 
energy legislation will set a foundation for renewable energy 
development for at least the next few decades. If tribes are 
not effectively included, we will be locked out of this 
important generational opportunity.
    There are solutions and impediments for development of 
renewable resources in Indian Country. The proposals of the 
Consortium are detailed in our written submission, but I should 
review a few. Finally, ICREC is not asking for special perks or 
treatment for tribes. Quite the opposite is true. Essentially 
what we want to do is to streamline the policies so that the 
opportunities are consistent with what's going on as you 
demonstrated so effectively with your map. So our policy 
priorities in our written testimony will delineate a long list 
of proposals. We will not reiterate those here, but I would 
like to reiterate a few that we believe are key.
    First is streamlining. The streamlining process at Interior 
and Energy, presently there are long delays in the federal 
approval and permitting process that make investments in tribal 
projects less attractive. It takes two to four years longer to 
build wind or solar resources in Indian Country because of the 
many bureaucratic steps that have to be taken. Development in 
Indian Country will greatly suffer. If we do not streamline the 
processes, we will not unlock this extraordinary potential.
    And the Consortium fully supports your one-stop shop idea. 
As other tribes have indicated to you throughout the Country, 
the Three Affiliated Tribes is not unique in the sense that 
there are many bureaucratic steps that often delay development 
on Indian lands. So there needs to be a process to create a 
NEPA policy that is not a hindrance but more of a tool and a 
shield to protect those resources on tribal lands, as well as 
to not to hinder development. It is past time for Interior to 
provide a specific checklist for approval of right-of-way for 
leases.
    Transmission. Inadequate transmission infrastructure and 
capacity on Indian lands, in addition to difficult access to 
transmission on and from Indian lands, is a huge obstacle. Even 
with the development of wind and solar power, without effective 
transmission capacity, those projects will stay on the 
Reservation, never to be a part of the grid. Further, 
permitting WAPA and BPA to give tribes priority in queuing is 
fair in light of the amount of WAPA and transmission lines on 
Indian lands.
    We could also show a different map, one that shows the 
transmission grids that go around reservations. The very simple 
reason of the leasing process and the right-of-way process has 
just made it impossible for development to take place without a 
commitment from the United States to see that those 
transmission lines are effectively put in Indian Country.
    Financing. Current financial incentives are ill-fitting 
instruments in much of Indian Country and thus act as a 
disincentive for tribes' capital investment in projects on 
their lands and with their own resources. What makes renewable 
projects feasible are tax credits, investment tax credits, 
production tax credits, new market tax credits. But tribes 
don't pay the relevant taxes where these issue become relevant. 
So they cannot use the principal means of the incentivized 
investment. We would like to be able to monetize those tax 
credits in a way that can give tribes a partnering investment 
opportunity throughout Indian Country in these renewable 
projects.
    The final word, administrative changes. We need to fill 
those positions that are still left open. The Energy Policy Act 
has not been implemented. One example is the Department of 
Energy's Office of Indian Energy Policy and Programs, was 
authorized under the 2005 OEPA. This program was intended, 
among other things, to permit far greater interagency 
coordination to facilitate tribal access in DOE programs. But 
it was not implemented carefully or it wasn't completely 
implemented at all. Actually, we do need to fill those 
positions that are still open. But the Administration has taken 
no action on the OEPA in nine months, no director, and it 
languishes in Intergovernmental Affairs, where it has no 
oversight of policies or programs.
    In conclusion, renewable energy represents an unrivaled 
opportunity to break the cycle of poverty in many tribal 
communities. But we have to make sure there is a level playing 
field. Tribes can compete with private developers, so long as 
they are not disadvantaged. The time to act is now.
    I thank you for the opportunity to speak and I would be 
happy to answer any questions.
    [The prepared statement of Mr. Gray follows:]

 Prepared Statement of Hon. James Roan Gray, Chairman, Indian Country 
 Renewable Energy Consortium Board of Directors; Chairman, Osage Nation

Introduction
    Good afternoon, Chairman Dorgan, Vice-Chairman Barrasso and Members 
of the Committee, thank you for inviting me as Chairman of the Indian 
Country Renewable Energy Consortium (``ICREC'' or ``Consortium'') here 
today to provide testimony to the Committee on this most critical of 
issues--unlocking the extraordinary clean energy development potential 
of Indian Country. I am Chief Jim Gray, I appear before you today as 
the Chairman of the Consortium.
    I would be remiss Chairman Dorgan if I did not also express my deep 
gratitude to you for taking such a leadership role in developing 
concepts and a comprehensive concept paper setting forth commendable 
ideas to ensure that Indian Country will be included in the emerging 
green economy. The Consortium views the Concept Paper an important 
starting point. We are encouraged by this Committee's leadership and 
foresight in understanding that unlocking the renewable energy 
potential on tribal lands and throughout Native territory is key to 
meeting the general National objective of energy independence and 
reducing carbon emissions.
    I want to start today by telling you a little bit about our 
coalition. ICREC is a not-for-profit entity established this year. Our 
Consortium has combined the extraordinary expertise of Indian Country 
and its allies along with a geographically-diverse group of tribal 
governments and tribal and Alaska Native Corporations, all of whom have 
a great interest in and are actively pursuing various aspects of 
renewable energy development. The Consortium is a unified voice and 
seeks to ensure that Indian Country will have a seat at the policy-
making table in this extraordinary generational opportunity. The 
Consortium recognizes the hurdles that have inhibited development of 
our renewable resources to date. These impediments will continue to 
impede if unaddressed. But, taking great advantage of the enormous 
expertise and dedication from people throughout Indian Country, the 
Consortium has worked hard to find effective solutions--ways to 
overcome the impediments before us.
    Chairman Dorgan, Consortium members understand the gravity of this 
present endeavor. We understand, as I'm sure you will agree, renewable 
energy development is no ordinary opportunity, but one that comes along 
every generation or so. Working together with your leadership and that 
of the President, we are confident that we can forge policies that will 
make certain that Indian Country is not left out as it has been in 
times past with other emerging development opportunities. There is much 
at stake in this effort, and the ICREC members are here to say in a 
loud, sober, unified and clear voice, we stand ready to work with you 
to set the proper foundation for this future.
    We are cognizant that the future, if effective policy choices are 
made, may be bright indeed for many tribal communities. There is 
tremendous potential for renewable energy development in Indian 
Country. We also know the present reality: actual projects have been 
slow to materialize. This is due to a variety of obstacles ranging from 
overly complex and burdensome lease approval processes to difficult 
transmission access and ill-fitting financial incentives. In light of 
the national strategic importance of renewable energy resources and the 
vast undeveloped renewable resources in Indian Country, coupled with 
the potential significant benefits of working with tribal governments, 
the Consortium has identified a number of policy options that will 
remove these obstacles. Let us be clear on one critical point at the 
outset--ICREC is not asking for special perks or treatment. Quite the 
opposite is true. Present policies, for a variety of reasons we will 
discuss in greater detail below, place our members and Indian Country 
generally in a distinctly disadvantageous position. The policy 
suggestions the Consortium is advocating are in furtherance of evening 
the playing field so that Indian Country can fairly compete in this 
emerging clean energy economy.
    Under current law, Indian Country faces primary policy challenges 
in the renewable energy and infrastructure development in the following 
broadly defined categories:

         I. LEASING & SITING--Indian lands lease review & approval 
        processes can easily take as many as two to three years longer 
        than the comparable processes for projects outside of 
        reservations, even in comparison with projects on Federal 
        lands; and there is a desperate need to streamline approval 
        processes, clarify and coordinate renewable energy development 
        and renewable transmission siting and leasing processes on 
        Federal and Indian lands;

         II. TRANSMISSION INFRASTRUCTURE--Inadequate transmission 
        infrastructure and capacity on Indian lands, in addition to 
        difficult access to transmission on and from Indian lands, and 
        obstacles to access to public energy grids, present significant 
        hurdles to renewable energy development in Indian country;

         III. FINANCING--Current financial incentives are ill-fitting 
        instruments in much of Indian Country and thus act as a 
        disincentive to tribes' capital investment in projects on their 
        own lands and with their own resources; and

         IV. FEDERAL PROGRAMS--Indian energy programs are not 
        effectively structured to support renewable energy deployment 
        in Indian country.

    In greater detail below, we discuss these challenges facing Tribes 
and Native Corporations in developing, investing in and owning 
renewable energy projects. * In addition we set forth specific 
legislative solutions and discuss some of the ideas outlined in the 
Committee's Concept Paper.
---------------------------------------------------------------------------
    * Because ICREC has focused its efforts at this juncture to support 
policies and priorities related to primarily commercial renewable and 
transmission projects, our recommendations also primarily reflect 
potential commercial solutions to the unique and important challenge 
that face Indian Country.
---------------------------------------------------------------------------
I. Leasing and Siting
    CHALLENGES & CONCERNS: It is widely understood that the enhancement 
of the Nation's renewable energy development, will rely heavily on the 
private sector. Indeed, the vast majority of the proposals being 
considered are some combination of incentivizing the private sector, 
creating new opportunities for private-public partnerships and public 
dollar investment.
    Attracting private capital, as always, will remain competitive. 
Development, in turn, which can move from concept to actual energy 
generation most promptly will have important competitive advantages. 
Put another way, in renewable development, as in so many other things, 
time is indeed money and to attract money, those who have built-in 
delays will be far less competitive.
    Yet, tribal development presently, suffers from many delays not 
attributable to tribes themselves but because of inefficient federal 
policies and practices. Consequently, these delays must be addressed if 
tribes are going to compete on an even playing field. We understand, of 
course, renewable projects sited and financed in Indian Country are a 
new phenomenon. But we also believe it essential that to not hamper 
development, new rules and procedures must be put in place to make 
projects timely, and hence, economically viable. Older leasing rules 
and paradigms which were designed to protect the Indian public and 
environment from non-renewable energy development are often, in a word, 
obsolete. Such approaches are not always necessary nor the best-fit for 
renewable projects. And we are fighting time. These two challenges 
alone suggest we begin to look towards innovative ways to stimulate 
renewable development on Indian lands.
    Investors, developers and Tribes who seek to invest capital on 
renewable projects are finding that the lack of clarity with respect to 
trust and Indian land lease reviews and permitting, and the often 
severe delays and extraordinary and unpredictable length of time 
involved in such federal reviews and the federal issuance of permits, 
serve as a great disincentive to capital deployment.
    Developer commitments and capital flow along the paths of least 
resistance. As federal agencies and states make it easier to site and 
permit projects on federal and state lands, creating more transparent 
and predictable processes, it is not surprising that capital will be 
more attracted to those projects and away from Indian projects, 
especially when under current systems, projects can take anywhere from 
2-5 years longer on tribal and other trust lands. The challenge then is 
clear--to be competitive, there must be streamlining of the processes 
and greater transparency.

Recommendations & Solutions
    A. The One Stop Shop is a concept whose time has come. We fully 
support the Committee's efforts and the Administration's establishment 
of ``one-stop-shops.'' Specifically, we strongly support creation of a 
one shop for Tribal renewable energy and transmission development and 
the establishment of clear rules with strict timelines so that leasing 
and permitting can be both predictable and prompt.
    B. Streamline the Appraisal Process and/or allow for third-party 
appraisals with Tribal consent, even if just for renewable and 
transmission projects to stimulate deployment.
    C. Authorize Long Term and Renewable Transmission Leases. An 
amendment to 25 U.S.C. Sec. 415 authorizing 25-year leases with an 
option to renew for an additional 25-years for renewable energy 
projects (projects defined as eligible for tax credits under IRS 
sections 45 and 48) and transmission projects substantially benefiting 
renewable projects without additional Secretarial approval.
    D. Extend the Allowable Length of Section 17 Corporations Lease 
Terms. Extend current authorization by Tribal corporations chartered 
under the Indian Reorganization Act Section 17 to lease lands and to 
extend the current terms of leases up to at least 50 years for eligible 
renewable and renewable transmission projects.

II. Transmission
    CHALLENGES & CONCERNS: It is no secret that one of the critical 
challenges facing our Nation generally in facilitating the growth of 
renewable development is transmission. It doesn't really matter how 
much energy you can generate if you cannot transmit that energy to 
viable markets. That is as true in Indian Country as anywhere.
    Although a significant transmission and federal hydropower 
footprint run throughout Indian Country, ironically, in virtually every 
instance, tribal renewable projects experience great difficulty in 
securing access to the transmission infrastructure on their lands This 
presents one of the most significant impediments to Indian renewable 
development--securing connectivity between Tribal renewable energy 
projects and electric markets. Put another way, a necessary 
precondition to unlock the potential for renewable energy development 
in Indian Country is access to commercial markets.
    Closer and more meaningful national collaborations with Indian 
Country and the Federal Government with respect to access, use and 
planning for future expansions of our critical national transmission 
system is essential. So far, tribal voices have not been adequately 
included in the national discourse on transmission build-out. It is 
essential that any clean energy statute ensure that tribes are on equal 
footing to states in making the critical transmission infrastructure 
decisions.

Recommendations & Solutions
    A. Authorize expansions of federal transmission with specific 
authorization to enter into Power Marketing Administration ``public''/
private/tribal partnerships for new lines and expansions of lines 
within current corridors for the specific purpose of rapid deployment 
of renewable energy on Indian lands. Authorizing both the Western Area 
Power and Bonneville Power Administrators, as they are currently 
authorized, to allow other entities to participate in the financing, 
construction and ownership projects; but with new authority to provide 
priority to the participation of entities which have partial or full 
ownership by a Tribe, Native corporation or tribal enterprise. In 
addition, specific authorizations to allow tax-exempt bonding authority 
to Tribes as a financing tool to acquire equity and ownership positions 
in said public-private-tribal transmission projects would provide an 
additional tool to address this concern.
    B. Create a Tribal Preference for Transmission Capacity And Queuing 
For Transmission Projects. Authorize queuing and capacity preference 
related to FERC-approved new transmission projects, for transmission 
rights and interconnections for Tribal and Alaskan Native renewable 
projects located in empowerment zones and HUB zones in Indian Country 
or authorize eligibility for any federal incentives by virtue of their 
status as Indian lands. Additionally, direct federal PMAs, as they 
undertake queue reform including cluster studies and similar 
assessments through the end of 2010, to advance applications for 
projects sited on Indian lands that have met the relevant criteria for 
interconnection requests.

III. Financing
    CHALLENGES & CONCERNS: As tax-exempt entities, tribal governments 
have a very limited ability to employ current tax-based credits and 
other financial incentives for renewable energy development--the 
primary drivers for renewable investment in the United States. Tribes 
and native communities often want to own and control critical renewable 
energy infrastructure. However, if they cannot utilize the incentive 
tools of tax credits, ownership is generally not feasible and 
prohibitive. The answer is making the tax credits fungible or tradable 
otherwise tribes are at serious disadvantage and inability to use tax 
credits will remain a further hindrance to renewable project 
development in Indian Country.
    The rationale behind the series of renewable energy tax incentives 
enacted over the years is fairly clear--to spur new investment in order 
to drive technology innovation, to incentivize investment into new 
generation cleaner energy development and to take advantage of 
economies of scale for manufacturing.
    As with many policy objectives, the intended effects and the 
practical effects are not in all cases the same. Tribal governments are 
keenly aware of their differences from other governmental counterparts. 
Those differences, as these policies were initially contemplated and 
designed, are not adequately addressed by current policies and do not 
begin to address a rapidly emerging interest and priority for Tribes to 
diversify and invest in (and control) their own renewable energy 
projects.
    The fundamental challenges for Tribes to compete with other 
governmental entities not to mention investor counterparts are 
unfortunately not solved with a single fix. Rather, there are targeted 
approaches that can significantly level the playing field in the near 
term. The complexity of the answers is better understood when 
understanding the practical effect of the current situation as well as 
and surveying some attempts to `fix' the situation in the past, namely 
two specific impediments:

Third-Party Non-Tribal Investment and Ownership of Renewable Projects
    To economically develop a renewable project, efficiently utilizing 
the investment tax credit (or production tax credit or other very 
important financial incentives) is essential. So essential in fact that 
it is causing most Tribes, looking to develop and invest into these 
projects, to bring on tax partners who can utilize these credits. But 
this is a Catch-22 of sorts for the tribes--they need the partner to 
take advantage of the tax credit, but for an extraordinary long period 
of time the Tribal governments is, in essence, losing significant 
control over their own critical infrastructure. Under present law, 
because the tax credits follow the capital investment and ownership on 
a pro rata basis throughout the term of the tax credits, the ownership 
and control of the project must be in the taxable owner partner. Simply 
put, Tribes can not monetize tax credits efficiently to offset any tax 
liabilities. This presents a disincentive for Tribes to own a project, 
much less invest in it, and presents a confounding and exasperating 
challenge.
    Rather than wait for all of the natural resources to be developed 
around them, Tribes are being faced with the question of whether to (1) 
wait until the law changes so they can control and invest in their own 
projects, and watch renewable development happen without them (and 
ostensibly saturate the market) or (2) accept third party tax 
investment, development and ownership--once again taking a passive 
position. Although some are choosing the latter and innovating creative 
compensation strategies to attempt to offset the inequities, it does 
not change the essential fact that third parties once again own 
critical infrastructure on Indian lands.

Tribal-Specific Hurdles to Issue Clean Renewable Energy Bonds (CREBs)
    The creation and authorization of the Clean Renewable Energy Bonds 
(CREBs), a financial incentive created in the Energy Policy Act of 
2005, and its inclusion of Tribes as eligible entities was a positive 
step forward in attempting to level the competitive playing field 
between consumer-owned utilities and other eligible entities (e.g., 
municipals, electric cooperatives, and Tribal governments) and tax 
investors whose benefits from these provisions is straightforward. The 
purpose of the CREBs program was to provide an incentive specifically 
for these entities to invest in new renewable electricity generation 
facilities.
    However, there are a few inaccurate assumptions made about Tribes 
in comparison to other governmental or non-profit entities authorized 
to issue CREBs which make the issuance of CREBs by Tribes for renewable 
projects very difficult, a fact which accounts for the few Tribal 
applications for the initial allocations. Municipal entities and 
electric cooperatives can effectively make the most of CREBs because 
both have tax-based governmental subsidies and/or rate-based entities, 
either of which can provide the securitizations necessary for pre-
project capital flow. Tribes, with the exception of very few, do not 
enjoy the resources to collateralize or fund pre-cash flow based on 
rate-based revenues and almost none have a sufficient tax base. Supreme 
Court cases have exacerbated this lack of Tribal tax base recently by 
allowing states to tax on Indian lands and limiting Tribal taxation of 
non-Indians on reservations.
    In short, while the purpose of this program is commendable and 
addresses the inequities between consumer-owned utilities and private 
investors, the practical effect on authorized Tribal entities has made 
this a program that falls short in addressing the fundamental 
challenges facing Tribal governments.

Recommendations & Solutions
    A. Require implementation of the DOE Indian Energy Loan Guarantee 
Program ($2 billion) which is already authorized by the Energy Policy 
Act of 2005. And if any centralized incentive program is authorized in 
either statute or by the Secretary, whether it be a green bank or other 
restructured DOE program, that loan guarantee funds be segregated for 
Indian Country projects and coordinated by the DOE Office of Indian 
Energy Policy and Programs.
    B. Authorize Production Tax Credits (IRS Section 45) to be 
Assignable. Incentivize Tribal and Alaska Native investment via 
transferability of IRS section 45 production tax credits between Tribes 
(and intertribal energy development entities) and their partners within 
a defined legal relationship. Congresswoman Herseth-Sandlin (SD) has 
introduced as stand-alone version of this request, titled the Fair 
Allocation of Internal Revenue Credit for Renewable Electricity 
Distribution by Indian Tribes Act of 2009 (H.R. 2982).
    C. Authorize Investment Tax Credits (IRS Section 48) to be 
Assignable. Incentivize Tribal and Alaska Native investment via 
transferability of IRS section 48 investment tax credits between Tribes 
(and intertribal energy development entities) and their partners within 
a defined legal relationship.
    Or in the alternative, the ICREC recommends the possible inclusion 
of these assignability authorizations in the section of the Code where 
these tax credit incentives emanate. IRS Section 38--General Business 
Credits, be amended by the addition of one subsection as follows:

        D. Proposed new Section 38(e):
           (e) Indian Tribes, and Alaskan Native village governments--
        An Indian tribe and Alaskan Native village government, or 
        qualified intertribal energy development entity, as a lessor of 
        property may elect to treat the lessee of such property as 
        having purchased such property for purposes of the credits 
        provided for in Section 45 and Section 48, even if the property 
        would not otherwise be Section 38 property in the hands of such 
        Indian tribe, Alaskan Native village or qualified intertribal 
        energy development entity.

           Proposed language addition at end of Section 168(h)(2)(A):

           A Qualified Facility under Section 45 and Energy Property 
        under Section 48 shall not be characterized as Tax-Exempt Use 
        Property as the result of an ownership interest by an Indian 
        tribal government.

        E.  Authorize a Permanent Extension of the Indian Wage Credit 
        and Accelerated Depreciation Allowance. These have been 
        relatively uncontroversial provisions which put in place and 
        reauthorized over the years and are a tremendous help in both 
        attracting and optimizing capital to projects in Indian 
        Country. Businesses cannot effectively plan with only annual 
        reauthorizations of these incentives.

        F.  Amend P.L. 98-369 section 60(b)(c) to Allow Loss Transfers 
        by Alaska Native Corporations. Incentivize Tribal and Alaska 
        Native Investment via loss transferability between Native 
        Corporations and Tribes and their partners within a defined 
        legal relationship.

        G.  Reauthorize (a Tribal) Renewable Energy Production 
        Incentives (REPI)--reauthorize the REPI for Tribal Projects for 
        production tax credit (PTC) projects in order to provide a non-
        tax credit financial incentive for renewable energy electricity 
        produced and sold by qualified renewable energy generation 
        facilities that can be used in conjunction with New Markets Tax 
        Credits and accelerated depreciation allowances on Indian 
        lands.

        H.  Reauthorize Grants-in-Lieu-of-Tax Credits And Authorize 
        Eligibility For Tribes. If there is any reauthorization of this 
        program which was established in section 1603 of the American 
        Recovery and Reinvestment Tax Act of 2009, authorize specific 
        eligibility of Indian Tribes and Alaska Native Corporations in 
        this program.

IV. Federal Programs
    CHALLENGES & CONCERNS: Indian Country renewable energy & 
transmission projects are positioned to be one of the most significant 
economic and infrastructure development opportunities in decades. With 
Tribal communities economically hamstrung by inadequate infrastructure, 
no tax base and population growth outpacing infrastructure growth--
energy and infrastructure development that will not just provide new 
revenue streams but also attract capital investments in manufacturing, 
new sustainable employment and a new hope to tribal communities 
deserves a dedicated focus and coordination by the agencies that serve 
Indian Country.
    Many provisions in the Energy Policy Act of 2005 remain not only 
unfunded but inadequately implemented. It is no surprise then that the 
provision have not served the purpose for which Congress enacted them. 
To support current renewable and transmission initiatives in Indian 
Country requires immediate implementation of these statutory 
provisions.
    One important example to help illustrate the point is The 
Department of Energy's Office of Indian Energy Policy and Programs 
(OIEPP). This program was intended, among other things, to permit for 
far greater intra-agency coordination and facilitate tribal access to 
DOE programs. But the OIEPP Office was implemented woefully. Although 
authorized by Congress for a $20 million budget, only this year have 
funds been requested. The OIEPP Director in the last Administration 
directed only himself; he had no staff; he had few resources; he 
oversaw no programs. Indeed, although under the Act he was to have a 
robust office with oversight of ``policy and programs,'' he has no line 
authority over any programs. Needless to say, this must change.
    The Department of Interior also plays a critical role. Bureau of 
Indian Affairs' realty staff will need far greater and more intensive 
training and support to handle the influx of new technology and 
commercial agreements otherwise this will continue to be a bottleneck 
and limit renewable project development.

Recommendations & Solutions
    A. Department of Energy Office of Indian Energy Policy & Programs. 
We need to fill the political position of the Director of OIEPP. The 
fact that it has not been filled, going into our ninth month of this 
Administration, and we still have not come close to filling this 
position is unacceptable. Moreover, that there is so little focus on a 
position which is such a priority for tribes is, in and of itself, 
proof positive of the centrally critical role this Office, properly 
staffed and funded, could play at DOE. Moreover, if we were to look at 
the plain language of the authorized statutory language--a Director was 
authorized which implies that the Director should have basic direction 
authority over Indian energy policies and programs. So far the OIEPP 
Director has only languished under DOE's Intergovernmental offices--
with non policy or program oversight. That too must change. Although we 
recognize that the Office has not been appropriated the funds 
authorized in past years, and the Office of Intergovernmental has 
stepped in to administratively host the position in the past 
administration--the fact remains that it was authorized to stand alone 
and, moreover, it authorized Director to direct Indian energy policy 
and programs and we call for it to be not just filled but to also be 
restructured to fill this very important policy and programmatic role.
    B. Department of Interior/Indian Lease Support. For renewable and 
energy infrastructure projects on Indian lands, for the Department of 
Interior, it remains a basic fact that in order to secure rights to a 
project and site any sort of renewable investment, the base agreement 
on Indian lands will involve a lease and/or right of way agreements. We 
fear an even greater bottleneck at the Bureau of Indian Affairs unless 
additional training and resources are devoted to ensuring prompt 
approval of leases and right of way grants. Among other things, BIA 
should provide tribes with a specific checklist of material they need 
and develop timelines for the approval process. Transparency and 
predictability are key virtues and should be central objectives in 
BIA's evaluation, processing and approval of the myriad of pre-
development, development, construction and operational agreements 
necessary for any commercial project. The Bureau of Indian Affairs 
needs additional, updated and adequate support for the new and complex 
set of tasks it will be charged with during this wave of clean energy 
development--support that will help it retain and fulfill its central 
trust responsibility as well as support that will help Tribes fulfill 
the promise set before us today.

About Indian Country Renewable Energy Consortium
    In 2009, the Indian Country Renewable Energy Consortium was 
formalized as by its original founding members--the Cherokee Nation, 
the Lower Sioux Indian Community, Oneida Nation of Wisconsin, Osage 
Nation of Oklahoma and Sealaska Corporation. Since its formation, other 
Tribes and tribal entities have joined as members, including Tribes and 
tribal corporations whose reservations are located in the Dakotas to 
the Pacific Northwest to Southwest States to California.
    The founding Tribes made a collective decision to focus on policy 
matters now actively before the Administration and Congress. Many of 
the founders, including Osage Nation which is testifying on behalf of 
the Consortium today, are Tribes which already have energy production 
but are seeking to, as the country is, diversify its energy economy 
through clean energy development. While the Tribes involved in ICREC 
have long lived in harmony with their natural surroundings and indeed 
thrived by utilizing their natural, often renewable, resources, they 
now are looking at the sun's, wind's and water's abundance as the 
source of greater self-sufficiency and accordingly self-governance. 
ICREC members are optimistic that this time tribes will share in the 
emerging economic opportunity. Working with this Congress and this 
Administration, we are confident to find a way to bring some equity and 
opportunity to Indian Country in this new clean energy frontier.

Conclusion
    ICREC is representative of not only the member Tribes, but 
representative of numerous Tribes who are interested, already invested 
in or able to invest in renewable energy projects in Indian Country--to 
finally have an opportunity to be an equity participant and owner in 
Tribal projects. Economic development and diversification cannot grow 
in Indian Country unless the infrastructure is there to support it and 
unless Tribes can play a significant part in the ownership and control 
of infrastructure Until that happens, the cycle continues.
    Renewable energy represents an opportunity to break this cycle of 
passive economic participation by Tribes in a sector that has, for 
obvious philosophical and cultural reasons, stimulated tremendous 
interest by Indian Country and also stimulated tremendous interest by 
industry to site projects in Indian Country. An intriguing twist of 
history has placed reservation lands in some of the most arid and 
windiest areas of the country. In addition, often by use of coercive 
tactics, transmission siting has often occurred on tribal lands. These 
two factors now present unrivaled opportunities to Tribes to finally 
develop some of the best class wind and solar resources not just in 
North America but the world.
    This Administration and this Congress has made sincere attempts to 
make investment and siting of renewables more economically feasible. 
The recommendations and opportunities discussed today will ensure that 
Indian Tribes, tribal enterprises and Alaska Native Corporations will 
be participants. We look forward to continuing to work with you to make 
this a reality.
    Thank you.

    The Chairman. Chief Gray, thank you very much. We 
appreciate your being here.
    Now we will hear from the Honorable Steve Herrera, who is a 
Tribal Council Member from the Southern Ute Indian Tribe in 
Colorado. Mr. Herrera, thank you very much for being with us. 
You may proceed.
    Let me say that the entire statement will be in the record. 
We are taking your summaries, of course, but your entire 
statement will be made a part of the permanent record of the 
Committee.

    STATEMENT OF HON. STEVE HERRERA, TRIBAL COUNCIL MEMBER, 
  SOUTHERN UTE INDIAN TRIBE; ACCOMPANIED BY TOM SHIPPS, LEGAL 
                            ADVISOR

    Mr. Herrera. Chairman Dorgan, thank you for allowing us to 
speak today, Vice Chairman Barrasso and the rest of the 
Committee. It is an honor for the Southern Ute Tribe to be 
called on to provide testimony today. And it is a personal 
honor for me to be here as well.
    Today I am accompanied by Mr. Tom Shipps, who is a 
longstanding legal advisor for the Southern Ute Tribe with 30 
years experience. His firm was employed first in 1968, so we 
have a lot of help from that firm in all of our aspects of our 
governing and our oil and gas revenues.
    Today I would like to give a little background of the tribe 
and its history. We have approximately 1,447 tribal members. 
Our reservation encompasses 700,000 acres in the southwest of 
Colorado. We have a checkerboard reservation, which incorporate 
fee land, trust land and other lands as well.
    History of the oil and gas success. My written testimony 
contains more detail about the steps our tribe has taken in 
natural gas development. But I will summarize some of that 
history today. In 1949, the tribe began leasing and was in the 
role of a passive royalty owner. In 1980, the tribe created its 
own energy department. The purpose was to study and collect 
data on the resources under the ground in which we knew there 
was resources but we did not know what, how much resources 
there were and how much reserves there might have been.
    In the late 1980s, we negotiated flexible mineral 
agreements under the Indian Mineral Development Act. In 1992, 
we actually formed our own gas company, which is called Red 
Willow Production Company, which actually provides most of the 
revenue to the Southern Ute Tribe.
    In 1994, with help from a partner, we purchased an on-
reservation pipeline gathering and treating company called Red 
Cedar Gathering Company. Today we have operations in 
approximately 10 States and the Gulf of Mexico and most of 
these have been remarkably successful. Success in energy has 
translated to a better life for our tribal members. This 
Committee has a very big responsibility and we appreciate 
everything that has been done to date. Hopefully we can get 
through some of these hurdles.
    Representatives from our tribe have been part of an ad hoc 
working group of Indian tribes and organizations to review 
problems in Indian Country related to energy development and 
potential situations. We are generally supportive of the ad hoc 
working group and responses to the committee staff's concept 
paper. Today I would like to bring special attention to a few 
items that we have. Item number one is the tribal energy 
resource agreements. The Energy Policy Act of 2005, Title V, 
establishes opportunity for electing tribes to contract with 
the Secretary to remove energy-related approvals from the 
Secretary Congress intended to be a broad and flexible win.
    The Department of Interior passed implementing regulations 
that accepted inherent Federal functions from what could be 
included in a TERA. Inherent Federal functions is not defined 
in the regulations and it is believed that we need to define 
those in order to move forward. In fact, to date, I do not 
believe that there have been any tribes who have entered into a 
TERA. It is believed that because of the inherent Federal 
functions concept or exemption, this is one of the reasons why.
    Number two, NEPA review, related Interior approval, leases 
and rights-of-way applications for permits to drill and other 
land related to approvals unduly delays decision-making and 
opportunities in Indian Country. Solutions in this area range 
from removing tribal land decisions from NEPA to allowing 
tribal environmental review procedure to be a substitute for 
NEPA review or alternatively, set mandatory deadlines for 
completion of reviews. Indian lands should not be treated like 
public lands.
    Number three, granting, perfecting and establishing 
priority of security interest in Indian lands associated with 
energy projects. There is no clear, simple system. This is an 
impediment to access to commercial capital.
    Number four, absence of diversity, jurisdiction, and access 
to Federal courts for Indian tribes, tribally-owned entities 
and those who contract with them also independent to commercial 
capital and contracting with third parties.
    Mr. Chairman, I would like to again thank you for allowing 
the Southern Ute tribe to provide testimony today. We look 
forward to working together to identify current and historical 
road blocks and removing those to help tribes develop their own 
lands and become successful in obtaining financial success for 
their membership as well as the Country. Thank you.
    [The prepared statement of Mr. Herrera follows:]

   Prepared Statement of Hon. Steve Herrera, Tribal Council Member, 
                       Southern Ute Indian Tribe

    Good afternoon Chairman Dorgan, Vice Chairman Barrasso, and members 
of the Committee on Indian Affairs. I am Steve Herrera an elected 
member of the Southern Ute Indian Tribal Council, the governing body of 
the Southern Ute Indian Tribe. Unfortunately, our Chairman, Matthew 
Box, is unable to attend this hearing on the Southern Ute Indian 
Tribe's behalf because of an important, previously scheduled, medical 
appointment. However, the Tribal Council and the Chairman have 
designated me to appear before you today on behalf of the Southern Ute 
Indian Tribe. In addition to our tribe being honored by your invitation 
to testify, it is a great personal honor to appear before you today.
    Also with me is Tom Shipps, whose firm has served as general legal 
counsel for our tribe since 1968. Mr. Shipps has represented us on 
energy matters for more than 30 years. He has testified before this 
Committee on several occasions and has worked cooperatively with 
Committee members and staff throughout his distinguished career. If 
needed in answering questions, I would like to call upon him for 
assistance.
    As a final introductory matter, our tribe would like to thank the 
Committee, not only for its work on behalf of tribes in the energy 
arena, but also for it leadership on numerous issues that affect Indian 
people throughout this Country, including law enforcement and health 
care.

Background
    The Southern Ute Indian Reservation, the exterior boundaries of 
which were confirmed by Congress in 1984 (Pub. L. No. 98-290, 98 Stat. 
201), consists of approximately 700,000 acres of land located in 
southwestern Colorado in the Four Corners Region. The land ownership 
pattern within our Reservation is complex and includes tribal trust 
lands, allotted lands, non-Indian patented lands, federal lands, and 
state lands. Based in part upon the timing of issuance of homestead 
patents, sizeable portions of the Reservation lands involve split 
estates in which non-Indians own the surface but the tribe is 
beneficial owner of oil and gas or coal estates. In other situations, 
non-Indian mineral estates are adjacent to tribal mineral estates. 
These land ownership patterns have significant implications when 
considering energy mineral development ranging from the potential for 
drainage to jurisdiction. Historically, we have established solid 
working relationships with the State of Colorado and local governmental 
entities, which have minimized conflict and emphasized cooperation.
    Our reservation is a part of the San Juan Basin, which has been a 
prolific source of oil and natural gas production since the 1940s. 
Commencing in 1949, our tribe began issuing leases under the 
supervision of the Secretary of the Interior. For several decades, we 
remained the recipients of modest royalty revenue, but were not engaged 
any active, comprehensive resource management planning. That changed in 
the 1970s for our tribe as energy resource tribes in the West 
recognized the potential importance of monitoring oil and gas companies 
for lease compliance and maintaining a watchful eye on the federal 
agencies charged with managing our resources. A series of events in the 
1980s laid the groundwork for our subsequent success in energy 
development. In 1980, the Tribal Council established an in-house Energy 
Department, which spent several years gathering historical information 
about our energy resources and lease records. In 1982, following the 
Supreme Court's decision in Merrion v. Jicarilla Apache Tribe, our 
Tribal Council enacted a severance tax, which has produced more than 
$500 million in revenue over the last three decades. After Congress 
passed the Indian Mineral Development Act of 1982, we carefully 
negotiated mineral development agreements with oil and gas companies 
involving unleased lands and insisted upon flexible provisions that 
vested our tribe with business options and greater involvement in 
resource development.
    In 1992, we started our own gas operating company, Red Willow 
Production Company, which was initially funded through a Secretarially 
approved plan for use of $8 million of trust funds received in 
settlement of reserved water right claims. Through conservative 
acquisition of on-Reservation leasehold interests, we began operating 
our own wells and received working interest income as well as royalty 
and severance tax revenue. In 1994, we participated with a partner to 
purchase one of the main pipeline gathering companies on the 
Reservation. Today, our tribe is the majority owner of Red Cedar 
Gathering Company, which provides gathering and treating services 
throughout the reservation. Ownership of Red Cedar Gathering Company 
allowed us to put the infrastructure in place to develop and market 
coalbed methane gas from Reservation lands and gave us an additional 
source of revenue. Our tribal leaders recognized that the peak level of 
on-Reservation gas development would be reached in approximately 2005, 
and, in order to continue economic growth, we expanded operations off 
the Reservation.
    Today, the Southern Ute Indian Tribe, through its subsidiary energy 
companies, conducts sizeable oil and gas activities in approximately 10 
states and in the Gulf of Mexico. Despite the recent downturn in energy 
commodity prices, we continue to be successful and growing. We are the 
largest employer in the Four Corners Region. We are also diversifying 
into other areas, including renewable energy development. Along the 
way, we have encountered and overcome numerous obstacles, some of which 
are institutional in nature. We have also worked actively with this 
Committee over the decades in an effort to make the path easier for 
other tribes to take full advantage of the economic promise afforded by 
tribal energy resources.
    These economic successes have allowed us to provide a higher 
standard of living for our tribal members than many would have thought 
possible a generation ago. Our members have jobs. Our educational 
programs provide meaningful opportunities at all levels. Our elders 
have stable retirement benefits. We have exceeded many of our financial 
goals, and we are well on the way to providing our children and their 
children the potential to maintain our tribe and its lands in 
perpetuity.

Indian Energy Initiative
    One persistent theme reflected in the last thirty years of our 
tribe's history is the notion that ultimately we are the best 
protectors of our own resources and the best stewards of our own 
destiny; provided that we have the tools to use what is ours and 
reasonable access to opportunities extended to other members of 
society. Though recognizing the critical historical importance of the 
federal trust responsibility, we also see on a daily basis the 
immobility that arises from forced reliance on a pervasive system of 
protection that is underfunded, understaffed, and often of questionable 
competence. Congress has created many paths for tribes to assume 
increased control over the governmental institutions that affect the 
daily lives of tribal members, and our tribe has taken advantage of 
many of them. The shift in roles, however, is particularly difficult 
when the systems that are being transferred are broken. Even for our 
tribe, which has achieved remarkable success, the challenges and 
responsibilities of preserving our culture, our tribal community, and 
our remaining attributes of sovereignty are daunting. We believe that 
this Committee knows that improvements can be made in fostering 
effective tribal governance and opportunity, and that when recognized, 
impediments to tribal success can be removed. It is for all of those 
reasons that we have participated actively in recent discussions 
related to problem-solving in the energy arena, and we hope that our 
ideas will be of value to the Committee.
    Representatives of our tribe have participated actively in an ad 
hoc working group of energy producing tribes and associated 
organizations, which has responded to the initial energy concept paper 
prepared by this Committee's staff. Although we have been involved in 
discussions related to all of the issues contained in the initial 
concept paper, we have also identified some specific items that we hope 
will be addressed by the Committee and, potentially, in legislation.
    First, with respect to Title V of the Energy Policy Act of 2005, we 
were vocal advocates for the Tribal Energy Resource Agreement (TERA) 
mechanism approved by Congress. We believe that the Secretary's 
regulations implementing those provisions undermined much of what 
Congress intended by eliminating ``inherent Federal functions''--an 
undefined term in the regulations--from the scope of functions that 
could be assumed by a tribe. To be sure, the Director of the Office of 
Indian Energy and Economic Development has encouraged us to prepare a 
proposed scope for a Southern Ute TERA, and we may yet prepare one. We 
do request, however, that the Committee examine this issue and obtain 
some clear understanding from the Administration as to how this 
regulatory restriction is to be interpreted.
    Second, we strongly believe that National Environmental Policy Act 
(NEPA) review mandated in the course of a federal agency's 
consideration of approval or disapproval of tribal land use decisions 
and related activities discourages tribal energy development, whether 
renewable or non-renewable. We have provided several suggestions for 
mitigating the unintended adverse consequences of NEPA review on Indian 
lands. Those suggestions include removing Indian lands from NEPA 
review, utilization of alternative tribal environmental review 
processes, and commanding expeditious review by Federal agencies 
involved in decisions affecting tribes or their lands.
    Third, one impediment to access to commercial capital related to 
tribal energy projects involves the absence of an effective, clear 
system for issuing security interests in tribal lands in a way that 
will confirm a first priority in the event of default. We urge the 
Committee to investigate the relationship of the BIA Land Title and 
Records system and its function, if any, in perfecting or providing 
assurances of priority of encumbrances and security interests with 
respect to tribal energy projects.
    Fourth, we request that this Committee initiate review and 
communicate with other applicable committees the absence of access by 
tribes or parties contracting with tribes to federal courts under 
diversity jurisdiction. This limitation imposes institutional obstacles 
to tribes who wish to provide for effective and commercially acceptable 
judicial mechanisms for dispute resolution, yet who are unwilling to 
default to state courts in the resolution of potential contractual 
disputes.

Conclusion
    In conclusion, the Southern Ute Indian Tribe is honored to appear 
before you today. We intend to remain active participants in this 
process as it develops, and we believe that our experiences have 
contributed to a unique perspective on matters related to energy 
development in Indian country.

    The Chairman. Mr. Herrera, thank you very much for being 
here.
    Finally, we will hear from the Honorable Ralph Sampson, 
Chairman of the Yakama Nation, Indian tribe in Toppenish, 
Washington. Mr. Sampson, welcome. You may proceed.

 STATEMENT OF HON. RALPH SAMPSON, JR., CHAIRMAN, YAKAMA NATION

    Mr. Sampson. Thank you, Mr. Chairman and members of the 
Committee. Good afternoon.
    My name is Ralph Sampson, Jr. I am Chairman of the 
Confederated Tribes and bands of the Yakama Nation. Also, I am 
Chairman of the Board of Directors for Yakama Power, the Yakama 
Nation's publicly-owned utility. Our utility has been 
delivering power since 2006, and serves four average megawatts. 
We are actively growing to serve the entire reservation and 
working to provide renewable energy generation to the 
Northwest.
    We support many of the ideas of the committee concept paper 
and greatly appreciate this Committee's willingness to assist 
tribes. We would like to see five obstacles of energy 
development addressed by this or other legislation, and we have 
experienced all of these problems first-hand in forming our 
utility and working as a public utility.
    The first is in dealing with the National Environmental 
Policy Act implementation. The Bureau of Indian Affairs and the 
Yakama Nation require environmental assessments that follow 
NEPA process for all major projects on the Yakama Reservation. 
What is frustrating is that the BIA's sister Federal agencies 
are requiring separate NEPA reviews of our environmental 
assessments. The original NEPA process takes six months to a 
year, only to have the various programs within the Government 
repeat the same process, doubling the time involved. This is 
done at the USDA under the Rural Utilities Service, RUS, and at 
Bonneville Power, the Administration and the Department of 
Energy.
    We understand and encourage the protection of the 
environment, as we are stewards of our land also. But this 
process places an undue burden on the tribal projects. We need 
a process that requires these other Federal agencies to 
participate in the original NEPA process, not to oversee what 
has already been done or to simply provide comments instead of 
repeating that whole process.
    Second, despite statutory language encouraging Federal 
agencies to purchase renewable energy, especially from Indian 
tribes, whenever we attempt to sell our renewable energy to 
Federal agencies operating within our reservation, we get 
nowhere. The failure means our local economy was not stimulated 
and the Federal incentive for renewable energy on our 
reservation evaporated.
    We need a Federal regulation or programs with teeth to 
support the development of Indian renewable energy and the 
purchase of power by Federal agencies, especially those 
operating on our reservation. One potential solution would be 
to have Federal agencies that acquire Indian renewable energy 
and delivers it to key trading hubs for use with other Federal 
agencies.
    Third, we would encourage that any legislation that is 
proposed and or enacted would be supported in the budgeting 
process. The Energy Act of 2005 promoted the production of 
renewable energies by providing money in various grants and 
loans, but failed mainly because many of the provisions of the 
Act had never been funded.
    Fourth, based on their experiences, tribes need statutory 
language that makes it clear that when the BIA transfers title 
or control of a Federal irrigation project, small hydro 
turbines and related substations or local distribution lines to 
a tribe, language in transmission contracts between the BIA and 
its sister Federal power marketing agencies, namely BPA and 
WAPA, cannot be used to prevent such transfers simply because 
the transmission contracts fail to contemplate such unique 
circumstances in Indian Country.
    Federal law makes it clear that empowering the tribe to 
manage their own affairs on their reservations and to pursue 
development of renewable energy are primary Congressional 
goals.
    Finally, that leads to our last issue. The Yakama Nation, 
through our tribal utility, Yakama Power, paid to examine, 
rebuild and restore three hydro power turbines on the Wapato 
Irrigation Project, a federally-owned and operated irrigation 
project. The irrigation project benefits both the Yakama Nation 
and many non-Indian farmers who farm the majority of these 
irrigated lands. Built in the 1930s and 1940s, the turbines 
have nameplated capacities of 4.2 megawatts.
    The sale of the renewable energy from these turbines will 
provide revenues back to the Federal irrigation projects for 
project-wide repair and maintenance. The BIA has never had the 
funds to repair these old turbines. This has only been made 
possible because Yakama has used $3.2 million of its own 
utility's money with the understanding that if we couldn't get 
the money back any other way, the $3.2 million would be repaid 
to our utility from the sale of energy. But if that happens, 
our utility cannot expand, or this Federal irrigation project 
will not have the money from the energy sales to cover its 
long-deferred maintenance for quite some time.
    We attempted to apply for a DOE grant for the development 
of small scale hydro projects that would have covered this debt 
that the Federal Government owes us. But because of a 
technicality in the law, the projects have FERC license. We are 
not eligible, we didn't have a FERC license because this is a 
Department of Interior project and thus exempt from FERC 
licensing.
    Any help that we can get recovering this money from the 
Federal Government would be much appreciated, whether in fixing 
the DOE grant requirements so that non-FERC licensed projects 
are eligible or providing a one-time appropriation to the BIA 
to repay the money.
    Ultimately, perhaps Committee members could assist in 
getting a waiver form FERC requirements for using their money 
only for FERC-licensed hydro projects. I appreciate this 
opportunity to speak before the Committee.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Sampson follows:]

 Prepared Statement of Hon. Ralph Sampson, Jr., Chairman, Yakama Nation

    Good afternoon, my name is Ralph Sampson, and I am the Chairman for 
the Yakama Nation Tribal Council, and the Chairman of the Board of 
Directors for Yakama Power, the Yakama Nation owned utility. Our 
utility has been delivering power since 2006, and serves 4 average 
megawatts. We are actively growing to serve the entire reservation, and 
are working to provide renewable energy generation to the northwest.
    We support many of the ideas in the Committee's concept paper and 
greatly appreciate this Committee's willingness to assist tribes. We 
would like to see five obstacles to energy development addressed by 
this or other legislation.
    The first is in dealing with National Environmental Policy Act 
implementation. The Bureau of Indian Affairs and the Yakama Nation 
require environmental assessments that follow NEPA, for all major 
projects on the Yakama Reservation. What is frustrating is that the 
BIA's sister federal agencies are requiring separate NEPA reviews of 
our Environmental Assessments. The original NEPA process takes six 
months to a year, only to have the various programs within the 
government repeat the same process, doubling the time involved. This is 
done at USDA under the Rural Utilities Services or RUS, at the 
Bonneville Power Administration, and the Department of Energy. We 
understand and encourage the protection of the environment, but this 
process places an undue burden on tribal projects. We need a process 
that requires these other federal agencies to participate in the 
original NEPA process or to simply provide comments instead of 
repeating the NEPA process.
    Second, despite statutory language encouraging federal agencies to 
purchase renewable energy, especially from Indian tribes, whenever we 
attempt to sell our renewable energy to federal agencies operating 
within our Reservation, we get nowhere. This failure means our local 
economy was not stimulated and the federal incentive for renewable 
energy on our Reservation evaporated. We need a federal regulation or 
program with teeth to support the development of Indian renewable 
energy and the purchase of that power by federal agencies especially, 
those operating on Indian reservations. One potential solution would be 
to have a federal agency that acquires Indian renewable energy and 
delivers it to key trading hubs for use by other federal agencies.
    Third, we would encourage that any legislation that is proposed and 
or enacted, would be supported in the budgeting process. The Energy Act 
of 2005, promoted the production of renewal energies by providing money 
in various grants and loans, but failed mainly because many of the 
provisions of the Act have never been funded.
    Fourth, based on our experiences, tribes need statutory language 
that makes it clear that, when the BIA transfers title or control of a 
federal Indian irrigation project's small hydro turbines and related 
substations and local distribution lines to a tribe, language in 
transmission contracts between the BIA and its sister federal power 
marketing agencies, BPA and WAPA, cannot be used to prevent such a 
transfer simply because the transmission contracts failed to 
contemplate such unique circumstances in Indian country. Federal law 
makes it clear that empowering the tribes to manage their own affairs 
on their reservations and to pursue development of renewable energy are 
primary Congressional goals.
    Finally, that leads to our last issue. The Yakama Nation through 
its tribal utility, Yakama Power, paid to examine, rebuild, and restore 
three hydropower turbines on the Wapato Irrigation Project, a federally 
owned and operated Indian irrigation project. This irrigation project 
benefits both the Yakama Nation and many non-Indian farmers who farm 
the majority of these irrigated lands. Built in the 1930s and 1940s, 
the turbines have a nameplate capacity 4.2 megawatts. The sale of the 
renewable energy from these turbines will provide revenues back to this 
federal irrigation project for project-wide repairs and maintenance. 
The BIA has never had the funds to repair these old turbines. This was 
made possible only because the Yakama's used 3.2 million dollars of its 
utility's money with the understanding that, if we couldn't get the 
money back any other way, the $3.2 million would be repaid to our 
utility from the sale of the energy. But if that happens, our utility 
cannot expand, and this federal Indian irrigation project will not have 
the money from the energy sales to cover its long deferred maintenance 
for quite some time.
    We attempted to apply for a DOE grant for the development of small 
scale hydro projects that would have covered this debt that the Federal 
Government owes us. But because of a technicality in the law, that the 
project have a FERC license, we weren't eligible. We didn't have a FERC 
license because this is a Department of Interior project and, thus, 
exempt from FERC licensing.
    Any help we can get in recovering this money from the Federal 
Government would be much appreciated, whether in fixing the DOE grant 
requirements so that non-FERC licensed projects are eligible or any 
providing a one-time appropriation to the BIA to repay the money.
    I appreciate this opportunity to testify and if I can answer any 
questions, please let me know.

    The Chairman. Mr. Sampson, thank you very much. We 
appreciate the testimony that all four of you have given.
    I am going to, in the interest of time, because Senator 
Murkowski has to leave, I am going to recognize Senator 
Murkowski first for questions, then I will recognize Senator 
Udall and then I will complete questions following that.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. I appreciate 
the courtesy to my schedule.
    And gentlemen, I appreciate your testimony here this 
afternoon. There is certainly a recurring theme that each of 
you have raised. You have talked about the NEPA issues, you 
have talked about just the regular process that seems to 
strangle many good projects. And then of course, at the end of 
the day, it always comes down to how we are going to finance 
this, how we are going to make this happen.
    We have a situation up in the State of Alaska right now, 
Cook Inlet Region is looking to build a 60 megawatt farm, and 
they are also looking to move forward on a demonstration 
project that would provide for coal gasification technology to 
advance. But what they are finding is that there is no Federal 
aid that is currently available. So they have to figure out how 
they piece this together internally. That, as we all recognize, 
is very, very difficult.
    I think it was you, Mr. Gray, that suggested that typically 
what we do around here is we advance tax credits, production 
tax credits, and that is one way to facilitate projects. But 
with the tribes, that is not a mechanism that can be realized. 
You have suggested perhaps monetization of those credits.
    I direct this to all of you in terms of what you think that 
we can do, particularly given what we are seeing right now with 
the very tight credit markets, how can we better facilitate the 
financial end of some of the roadblocks that we are seeing with 
Indian energy projects right now? Mr. Gray?
    Mr. Gray. Thank you for the question. I really do want to 
just add to the urgency that exists in Alaska that most people 
may not be aware of, that in Native villages in Alaska, that 
the electrical costs for heating their homes is often ten times 
the national average. So the burden is twice as hard on them to 
find renewable resources.
    To the extent that we can tweak the law to make it possible 
for tribes who have limited capital investment capacity to be 
able to partner with industry that has the capacity to do this, 
this gives the tribes what we would call an investment 
capability into a project. By monetizing some of the tax 
incentives and the production tax credits and the investment 
tax credits, the tribes would be a full partner in many ways to 
participate in these projects. This would ensure at least the 
production of these renewable resources.
    The problem that I continue to see, that I am certain is 
probably just as evident in Alaska as it is in the lower 48, 
and that is that the electrical grid needs a major overhaul in 
this Country. Much like the Federal highway system needed a 
major commitment from the United States to see it through, the 
electrical grid provides not only development opportunities but 
capacity building for individual tribes across the Country who 
have often been left out of the whole process over the years, 
just because of the bureaucratic issues that we have raised 
already.
    So those two issues seem to be the big, important ones. The 
bonding authority for tribes to be able to issue bonds to be 
able to finance these kinds of projects is also critical to the 
development of sustainability. And having a degree of tribal 
control over the development and allocation of electrical 
resources.
    Senator Murkowski. Mr. Herrera, do you have anything that 
you wanted to add on that? I know you have certainly been keyed 
in on the financial transaction aspect of it.
    Mr. Herrera. Yes, ma'am, and thank you very much for asking 
the question.
    Some of the projects that are not seen or followed through 
with are because of a lack of financial backing is in some 
cases attributed to lack of recording for the monetization or 
the potential for the financial backer to make sure that they 
have access to that land if there is a foreclosure or if there 
is a potential for the tribe to become delinquent. So one of 
the things that we think is, we need to set up a recording and 
monitoring of these lands so that whenever a financial backer 
comes onto the reservation, that we can actually show that they 
have first right of refusal or there is actually some monetary 
amounts that they can recapture from this investment. Because 
they pretty much stay away from it if they aren't assured that 
they can actually recoup their money.
    So being able to have a system in place to ensure that they 
understand and it is actual that there is a method for them to 
recoup their money, or at least to make sure that they don't 
lose the investment in whole.
    Senator Murkowski. Mr. Levings, I understand that you had 
participated in crafting at least certain parts of the 2005 
Energy Act. It was not just me, I think Senator Udall noted it, 
I think it is recognized that much of what we had hoped was 
going to materialize from that 2005 Energy Act, when it comes 
to the Indian energy title, we haven't seen. Do you have any 
specific suggestions as to how we could have made it work 
better or in hindsight now, what we should have done 
differently?
    Mr. Levings. Senator Murkowski, I wasn't involved in that, 
I don't believe.
    Senator Murkowski. Okay, well, we are giving you credit for 
that.
    [Laughter].
    Mr. Levings. The one-stop shop, though, Senator, I was 
involved with.
    Senator Murkowski. Maybe that was it.
    Mr. Levings. I guess I am kind of a grass roots chairman, 
as my colleagues here and fellow presidents and chairs and 
council members and councilwomen across Indian Country. I came 
up from the bottom. I was a realty specialist in Warm Springs, 
Oregon, back in 1990 and 1991. I did work in oil and gas as a 
land man. And now to come full circle as chairman, to see all 
of the hurdles and the red tape and the bureaucratic process, 
it is amazing that oil industry comes to Indian Country.
    The 49 Steps, for instance, that Chairman Dorgan, he got 
those right from our people on the ground at the agency.
    Senator Murkowski. You weren't making up the numbers?
    Mr. Levings. No, it is actual. Then you almost had a 50th 
step with the EPA guideline that they were going to try to 
implement on Fort Berthold. It is really frustrating, because 
every morning I wake up and I look out the west window where I 
live. I am about half a mile from the reservation border on the 
western side by Keene and Charleston. And there is a derrick 
standing up on the ground. Twenty days later, there is a 30-
foot flare of natural gas flaring. They move the rig southwest, 
I would say, a quarter of a mile, and they are drilling there. 
And then there is another flare. And they are just going right 
down the line. And it is on fee land off the reservation.
    I am looking on my land, my grandparents' land, the Wells 
place, the Levings place, Bird Bearers, Banks, all the way down 
to the buttes, and it is dark. But off the reservation, it is 
light to the west, it is just a horizon. It is like coming up 
into a city horizon. You go north, same difference. I can look 
out my porch on the east side of the home, on the north side, 
it is just lights up there. And that is just from my front 
steps.
    Now, my elders, they see this day in and day out. And their 
words are this, Chairman, I signed the lease. I am going to get 
my bonus and I am going to spend it, but I am never going to 
see royalties. I am going to die before I see my royalties. And 
three of those grandmas have passed on.
    That is our frustration. So that photo, that map up there 
is reality. And on the reservation, as many tribal leaders will 
attest to, when things go bad, you blame the council and you 
blame the chairman. And right now, that is the problem that we 
have, there is a lot of finger-pointing. When that happens, it 
gets a connotation that you are not doing enough. So any time I 
am requested to be here to give the grass roots, what is really 
happening, here I am. Because I need to pass the message along.
    With the 2005 opportunity, I don't know why we wouldn't try 
it. Because Fort Berthold, the Mandan, Hidatsa and Arikara, we 
want to try anything and everything. There is a TERA provision 
in there. The second opportunity would be to 638 contract the 
Bureau of Indian Affairs' realty program.
    But the problem I have on Fort Berthold is in 1986, they 
had a referendum. And the people voted not to do that. So 2009, 
I would have to send it back to the Mandan, Hidatsa and Arikara 
11,000 membership and ask them, is it safe to do it today. 
Because that would provide us an opportunity to do our own 
paperwork.
    However, the Federal Government still has to sign off on 
those leases and permits. So, Senator, in the long and short of 
it, I am really frustrated.
    Senator Murkowski. We hear your frustration. But you are 
clearly doing more than just working at the grass roots. You 
are obviously representing your people well, and I thank you 
for your testimony.
    Thank you all. Thank you, Mr. Chairman.
    The Chairman. Senator Udall.
    Senator Udall. Thank you, Mr. Chairman. Thank you for 
allowing me to go at this point.
    Let me just follow up, Chairman Levings, with you. As you 
know, and you were here when Senator Dorgan put the chart up, 
you should know you have a real champion in him.
    Mr. Levings. Yes.
    Senator Udall. He has put that chart up many times, when 
Larry Echo Hawk was here, when Secretary Salazar was here. He 
is trying to shake the bureaucracy and get things done with 
you. He is really making an attempt, I think, to cut through 
the bureaucracy and get things done.
    One of the things, in light of talking about bureaucracy 
that I would like to ask, if any of you on the panel have any 
experience with this, when we passed the 2005 Energy Bill, one 
of the provisions to try to cut through bureaucracy allowed 
tribes to enter into mineral leases without day to day 
oversight from the Secretary. But apparently, no tribe has 
applied for this program. Do any of you have any sense of why 
that has happened, why that provision hasn't helped us move 
this along? Please, go ahead, Mr. Gray, go ahead, or Chairman 
Levings.
    Mr. Gray. We affectionately refer to it as the war on TERA 
back home in Indian Country, largely because people are in the 
mind set that there is a lot of things that tribes give up in 
way of the trust responsibilities that often should come with 
some kind of balancing. This is what we get in return for 
giving up certain portions of our trust responsibilities. 
Tribes haven't been able to really find that balance very 
equitable. I think that many times that we, especially those 
treaty tribes, certainly do hold those trust responsibilities 
very near and dear to their heart as a generational obligation 
that they pass down from their elders to their children. And 
anyone who breaks that agreement is highly criticized back 
home.
    The critical elements of the Tribal Energy Resource 
Agreements require us to give up certain responsibilities to 
the United States or waive the liability of the United States 
on certain projects. And while the details of each individual 
TERA may be different from tribe to tribe, the overall message 
that tribes got from that agreement is that there is a lot of 
liability that the United States does not any longer want to 
absorb in developing tribes' energy resources.
    Because of that, I think tribes are stuck in limbo, saying, 
well, short of that, what can we do? Because no one wants to go 
to that ultimate step of being the first one to go through the 
chute, as they say. I would say that right now, that is 
probably the biggest reason.
    Senator Udall. Please, Chairman Sampson, go ahead.
    Mr. Sampson. Thank you. I would like to agree with Chairman 
Gray that it is true that it is, I take an oath of office just 
like you do. It is within our oath that we are to uphold the 
treaty of June 9th, 1855, the Yakamas with the United States of 
America. In that treaty, there are trust responsibilities that 
are obligating the United States to uphold to. By signing onto 
that, we would be relinquishing some of the trust 
responsibilities. That is mainly the main course why you 
haven't seen the Yakama Nation sign onto that.
    Senator Udall. Please, Councilman Herrera.
    Mr. Herrera. Thank you, Senator Udall. Thank you for the 
question.
    We feel that along with comments that have been heard 
already is that it is a government responsibility. We have been 
in that mode for a very long time. Of course, there is a lack 
of funding in all aspects of the oversight and the 
responsibility of the Government to take care of the tribal 
organizations or tribal members and tribes as well. One of the 
other aspects is, it is difficult for a certain tribe to go 
ahead and enter into this type of agreement with actually some 
comprehension of, what does this mean for all of Indian 
Country.
    So if we go into it and there is negative impacts that are 
seen in the future, it is one of those things where we really 
have a hard time, and we are apprehensive to doing it, because 
there could be some negative connotations that are going to be 
seen throughout Indian Country, and definitely no tribe wants 
to be set in the forefront of establishing negative impacts to 
the rest of the tribes in the United States.
    Senator Udall. Thank you. Chairman Levings?
    Mr. Levings. Senator Udall, the Three Affiliated Tribes, 
the Mandan, Hidatsa and Arikara, have heard the problems, heard 
the stumbling blocks, the hurdles. And we took care of many of 
those in 1997 under the support of Chairman Dorgan and Senator 
Conrad and Congressman Pomeroy. They established an opportunity 
for Fort Berthold to change the mineral ownership requirement 
for a lease from 100 percent criteria to 51 percent. That was 
one of the hurdles.
    The second one was we had a dual taxation in the State of 
North Dakota. So the tribal council and the Governor and the 
legislative body for North Dakota worked that out. We have an 
MOU on tax, there is one tax and we divvy it up and we work 
through it. Of course, it was respectively to not waive any 
sovereignty.
    Then we also did a regulation. This month, or shortly into 
November, Governor Hoeven and I are going to sign that document 
in the tribal chambers. So we are doing everything we can to 
remove the uncertainty for the industry. We are working here 
with Chairman Dorgan and the one-stop shop to make it perfect, 
is probably the word that I am looking for, because right now, 
it is not staffed yet. There are some things that have to do.
    The TERA itself, I am willing to try it. I was ready and 
willing to go with the MOU with the State, with a one-stop shop 
with them. But I wanted to give Chairman Dorgan his all due 
attention, because he said he was going to give me that 
opportunity to streamline. And I believe it is going to get 
done. Because Chairman Dorgan can build bridges. There is one 
built at Fort Berthold, and it cost $50 million and he got it 
done. So that is not an issue.
    [Laughter.]
    The Chairman. It's not a bridge to nowhere, right?
    [Laughter.]
    Mr. Levings. So he can move mountains as well, if we need 
Rocky Mountains moved, he can do it.
    So what I am doing as a chairman is trying to let you know 
that we appreciate everything that has been accomplished. But 
the problem that I have is our elders are passing away. And 
they are making their premonitions come true, their predictions 
and their comments. Before I left, I had a fellow councilman 
tell me about his aunt and his uncle, who just can't get to 
that drilling. And they see it happening all around the 
reservation.
    So we are willing to try TERA. But like Chief Gray said, 
the jury is still out. What are they going to provide to the 
tribe, what trust responsibility are they going to give us? And 
then on the 638 concept, which is similar to a TERA but 
different, you would still need to have the area office sign 
off for Federal officials. So you are pretty much just 
preparing the paperwork and they are still signing off. So I 
guess in Federal lands, we understand there are a lot of 
issues.
    But when you have fee land right across the way, everything 
is going fine. And then you come to us and it stops. It is 
really tough, because a lot of these oil companies are turning 
their lease back. Three years have burned, four years have 
burned, and now they are coming to us and saying, do you want 
these? We can't get the permit.
    Thank you, Senator Udall.
    Senator Udall. Thank you very much.
    Let me thank the entire panel. I think all of you have as 
leaders been excellent advocates for your tribes and for your 
people. Thank you very much, and I yield back, Mr. Chairman.
    The Chairman. Senator Udall, thank you very much, and 
thanks for your continuing interest in these issues. I know 
that your State has an abiding interest in these issues as 
well.
    Let me ask, if we can put the chart back up that shows the, 
and in many ways, this is a metaphor for the entire Country, 
that Indian land is treated different than other lands. And 
particularly when it comes to energy development, to have the 
Indian nations left behind in development means that they are 
denied the opportunity that comes with that development, the 
opportunity for the royalties and the revenue, but also for the 
jobs and so on.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    So this shows oil and gas wells that are being dug or have 
been dug on the Reservation. Frankly, it shows we have made a 
little progress, because it wasn't very long ago that the map 
of the Indian reservation showed a big vast area of gray with 
very little energy activity. You will see that around the 
Reservation there are a lot of oil wells that have been 
drilled. Wells are now producing oil. So when the Chairman and 
his tribal council brought this to my attention, I immediately 
wondered why, why is this the case, how can this happen? If 
ever there is a need to go into the Bakken Formation and drill, 
you would think the most significant need is on the Indian 
reservation. The Bakken Formation exists throughout that 
reservation as it does north, south and west.
    And what I discovered was a 49-step process, I believe it 
was 49 steps by the Interior Department, with four separate 
agencies inside the Department that were required to give their 
individual stamp of approval. And if an oil company wanted to 
come on the reservation and get a permit to drill, it meant 
that it was going to take them much, much, much longer to get a 
permit if they ever did get a permit than going a mile and a 
half off the reservation and in five to seven days, just like 
that, getting a permit to drill.
    Now, that is unbelievable to me. So when I learned that, it 
has taken, I understand now, two years to get 24 wells drilled 
on the reservation. When I learned that, I met with the 
Interior Secretary, we put together an initiative called a 
virtual one-stop shop, tried to get the four agencies working 
together. And I think there has been some progress. But 
Chairman Levings, tell me, what more is necessary? Have they 
streamlined the 49 step process? Have they hired what they have 
promised to hire to make the one-stop shop work? Tell me what 
is necessary.
    Mr. Levings. There are four posts that they have 
advertised. They filled one, but they didn't fill it with an 
expert. They filled it with a manager, which I guess is okay, 
but we need an oil and gas expert. We borrowed one from the 
Denver office, Jeff Hunt, and he is great. We need about four 
or five of his capacities and abilities.
    But the three other posts aren't filled. Then as soon as 
they are filled, he is going back to Denver and the one-stop 
shop. Dawn Charging has been hired, she means well, she is a 
tribal member, but she doesn't have the oil and gas background. 
So she respectfully hears our words.
    Out of the Aberdeen area, they had a one-person show doing 
these permits for all these 40 companies. And it just wasn't 
happening. So they reassigned him to do a programmatic document 
for Mandaree segment and west segment. But they put three new 
people on to do the permits themselves. So that changed things 
overnight. In a matter of two weeks, they did 22 permits. So 
that was a step in the right direction, and I commend Bob 
Middleton with the Washington, D.C. office and Mike Black from 
the area director's office. But that was needed some time ago.
    What I think they need to do is detail in some people from 
Chief Gray's area or the Billings office and get them in there 
to help on this effort, whether it is four, six or maybe more, 
just to get us to where we need to go. Because the winter is 
coming upon us. And if you recall last winter, Chairman Dorgan, 
it was tough in North Dakota. I don't think we dug out until 
April, somewhere in there. So we have that issue of walkovers 
now. Walkovers aren't going to happen when the snow hits, so we 
are going to have to wait.
    But as far as the initial progress, I think we are patient 
and we know that it is going to happen, it is going to take 
place. But those are some opportunities I think they can do.
    Within the Department itself, our words and our testimony 
are accurate. They transferred in, detailed in people who never 
worked in realty prior. And they were learning on the job. My 
words are true, because I did interview a couple of them, and 
they said, well, I got detailed in from Aberdeen. I never 
worked in permits before, I used to be in probate. Well, 
probate is over here and oil and gas is over there. And 
respectfully I said, well, I will help to do the best I can to 
give you any insight. Then the realty officer, first post on 
oil and gas. And she is the one who is going and sitting side 
by side with my staff at these lectures and trainings.
    So it is the Bureau type of rules, I guess, on transfers 
and details. But they need to probably provide the best resumes 
versus, well, they are just a GS-9 and they are qualified, so 
send them up there. That was kind of the issue, Chairman.
    The Chairman. I don't want you to be patient any more. I 
will, following this meeting today, be in touch with the BIA 
and try to understand from them, why is it representations were 
made about what they were going to do and why those positions 
haven't been filled with qualified people with experience. It 
is not satisfactory to me to say, here is what we pledged to do 
to get this moving and then not to have them do it. There are 
so many broken promises. You don't need more broken promises 
from the agencies that have told us explicitly, we will fix 
this.
    So tomorrow, we will be at those agencies to try to 
understand why it is you have been told that, here is the 
staffing level, we are going to get you people, and they don't 
get you all the people you need, number one, and number two, 
the people they get you aren't experienced. That is 
unsatisfactory to me.
    Mr. Gray?
    Mr. Gray. Thank you, Chairman.
    The question that you identified that is going on at Three 
Affiliated is something that is going on across Indian Country. 
That is that we do need a concerted effort from the 
Administration to recruit and hire and retain qualified 
individuals with the expertise in the areas that they are asked 
to work in.
    When you talk about one-stop shop, I just want to throw out 
to you for your consideration to take a look at the Osage 
Agency, which has been in effect a one-stop shop for many years 
now. This one agency serves the dual functions that the BLM 
serves on other reservations, as well as MMS, as well as the 
trust responsibilities that are carried out through the BIA and 
OST. The sole purpose of really trying to accomplish a one-stop 
shop can be undermined simply by the fact that you have the 
wrong people in the right positions.
    With the limited funding that has been made available for 
recruitment and training and retaining these individuals to 
work in these fields, some of the areas in Indian Country are 
in the most remote areas of the United States. To recruit the 
best people that you can in the industry is going to be very 
difficult without some incentives.
    I would like you to consider that the agency, that BIA 
consider doing something like IHS does, of funding through a 
scholarship program that allows individuals to be able to work 
off their school loans on an Indian reservation working in that 
specific field. That might be one, that might be a longer term 
solution to an immediate problem that we have.
    But I think a lot of it stems from the one issue that I did 
bring up in my testimony, which had to do with the DOE position 
that after nine months, is still not filled. As you mentioned 
before, there are 49 steps, well, not only are there 49 steps 
just getting the leads, but there is also multiple overlapping 
jurisdiction of different agencies, from the Fish and Wildlife 
Department to the EPA, to DOE, DOI.
    There are a variety of different agencies with acronyms 
overlapping that could impact the lease as well. If that 
position was filled and staffed and given the kind of director 
authority that the Energy Policy Act of 2005 actually 
envisioned, it might address some of these issues from a 
WASHINGTON level that could impact the local agencies around 
the Country.
    The Chairman. You are saying the Osage Agency works, 
functions, is a model. Is that staffed with BIA personnel, 
Interior personnel?
    Mr. Gray. Yes, it is. And it has been operating that way 
for a number of years now. The hope is that we can actually use 
that as a model for other tribes to look at. I certainly invite 
the Committee to send a representative down there to check out 
the operations. It could prove to be worthwhile.
    The Chairman. Where is that located again?
    Mr. Gray. Pawhuska, Oklahoma.
    The Chairman. Mr. Herrera?
    Mr. Herrera. Yes, Chairman Dorgan, thank you very much.
    I would just like to also comment on the NEPA review and 
some of the troubles that the Southern Ute Tribe has gone 
through as well. On fee lands, just outside the reservation, 
and even within the reservation, the State actually allowed 80 
acre spacing, where it was 160 acre spacing. So we got more 
wells on the same amount of land.
    In order for the tribe to do this, we have just actually 
got through the NEPA process that took two and a half years, 
and it actually took over a million dollars of our own money 
just to get this done. When it comes to the Bureau of Indian 
Affairs function, we actually have employed some of the ex-
employees who are tribal members to do functions when it comes 
to realty and all the functions, when we are trying to drill 
locations. So those are funded by the tribe already. We haven't 
had a superintendent up until recently, for the last five 
years. And in reality, there are only three people at this 
agency, where before you could go down there and probably see 
about 14, 20 people there. It is just understaffed.
    The Chairman. You haven't had a superintendent for five 
years?
    Mr. Herrera. Prior to this last, we just got one recently. 
And in closing, I think that in reality, I understand the trust 
responsibility from the Government. But we need to understand 
that if it is not going to be funded, we need to make sure that 
the roadblocks are taken out of the way, so that we can go 
ahead and do our business as we need to. It is imperative that 
we are able to get this stuff done because our tribal members 
are dying. They are in dire need. If the roadblocks are still 
there, we are not going to be able to do what we need to do to 
make sure that our lives and the lives of our children and 
children's children are taken care of in the future, sir.
    The Chairman. The three items that we identified in the 
report, the concept paper, are antiquated laws and cumbersome 
regulations, we are talking about that; lack of tribal access 
to the transmission grid, and I would also include in that any 
conveyance grid, of pipelines in the case of oil and natural 
gas; and then lack of available financing and incentives for 
investment by tribal energy projects, all of which we think are 
dilemmas that need to be addressed and all of which in some 
ways thwart full development.
    I don't think any of us are suggesting just essentially, 
get rid of all of the 49 steps and let anybody do whatever they 
want at any moment. That is probably not possible and not 
advisable. But it is the case that we need to try to understand 
what is thwarting development and how do we address those 
challenges so that we have robust development on tribal lands.
    Mr. Sampson?
    Mr. Sampson. Thank you, Chairman Dorgan. I just wanted to 
make a comment. Before I came up here this afternoon, I made a 
stop down at the Office of Indian Energy and Economic 
Development and spoke with them about a project that the Yakama 
Nation has under review at the present time. I checked into 
their loan program to fund this project. I was informed by the 
gentleman there that they only have $100 million for the whole 
Nation there within their program for funding sources for 
fiscal year 2010. For our project alone would take half the 
whole budget for the United States, that we were proposing. I 
just can't see that there is enough funding that should be 
shoveled toward that agency, of all agencies, to help us 
develop our resources here within our reservations. It is 
severely underfunded.
    The guaranteed loan program is fine. But then that allows 
the, requires the tribes to come up with the capital 
investments to come up with the big dollar projects that are 
out there to develop.
    So I think this program does need a good kick in the pants 
there to get it some fund toward the tribes at the reservation 
levels. We could probably see more projects being developed if 
they did have more funding.
    Thank you, Mr. Chairman.
    The Chairman. I think one of the common themes we hear 
across the Country is that on Indian lands, because they are 
different and unique, we have the requirements of so many 
different steps. I don't think my State is unique, that if you 
are in my State, and wish to drill on private lands or even 
State lands, you will very quickly get a drilling permit. You 
file an application and pay a small fee and get a drilling 
permit in not very many days.
    That is not the case if you aspire to drill on the Indian 
reservations. We should find ways, it seems to me. My point is, 
I believe that is not the case just in North Dakota. I believe 
that is the case across America with respect to Indian lands. 
If that is the case, then I appreciate that there may be a 
model at the Osage Nation. But my guess is that at almost every 
reservation where there is the potential for substantial energy 
development we face the same myriad of steps and the same 
bureaucracy that moves very, very slowly.
    In Interior, I think in our State there are four different 
agencies of Interior that have to come to bear on these things. 
Each take their time. There seems to be no urgency on any of 
them. Then we get an agreement to do a one-stop shop, and you 
hire people that don't really have experience. So then it takes 
a while for them to understand and learn and get trained.
    That is just not satisfactory. We need to do much, much 
better.
    I think what I am going to do as a result of these 
discussions, I am going to ask Secretary Salazar if he will 
appoint one person in the Interior Department to work with this 
Committee, one person as a coordinator, representing the 
Secretary himself, to work with us to solve these problems and 
so that one person understands there is responsibility to get 
something done, and there is a time line to get something done. 
Otherwise, this will just go on forever. People on Indian lands 
that want to develop energy will continue to be frustrated. So 
we don't want to walk into the future that way. We want to 
begin to solve problems.
    The purpose of this hearing really is to evaluate what, in 
the concept paper, can come from these discussions that could 
result in some legislation to move this along. I think some of 
the answers are in legislation. But I think some of the answers 
are as well just in administrative decisions to make agencies 
work the way we would expect them to work, with some dispatch, 
some coordination, so that you can work together to get 
something done.
    Mr. Levings?
    Mr. Levings. Chairman Dorgan, the concept of partnering, 
the industry is with us, and we are with them. They wanted to 
accompany, one time, 15, 20 companies strong, and they said, we 
want to come there and fill that Committee room up with you, 
and I said, no, that is my job. And they are looking out for 
the allottees just as hard as I am and the tribe in general.
    Two, these expos we have had, whether it is a State expo 
with the oil producing counties, or it is the tribe expo or the 
Bureau of Indian Affairs expo, we all come together and we 
brainstorm. The distinction is huge. On Wednesday, I signed a 
lease for a company, we have ownership in fee lands as well. I 
signed a lease on a Wednesday, they pulled the drilling rig in 
on a Thursday. That is how quick it is. On one of our wells 
that is on trust land, we approved it in January of 2005, they 
pulled the rig in in April of 2008. That is the big difference, 
Mr. Chairman.
    The Chairman. I think that describes it in stark detail.
    First of all, let me say I appreciate all four of you 
traveling some distance to be with us. Senator Barrasso and I, 
as a result of the concept paper, as well as our staffs, are 
trying to determine with this concept paper, what do we move 
forward. And having a hearing of this type is very helpful. I 
think it might be useful for us to take a look at the Osage 
Nation model, as you suggest. All of us believe everything that 
exists back home for all of us is a model. But I but you are 
right, that you have a good functioning system, and we want to 
take a look at that.
    It does, in many respects, no matter what the location, 
require skilled people with experience, and who also are 
determined to try to make something happen. The bureaucracy, I 
use that term advisedly, doesn't always work that way. 
Bureaucracy means big organizations. There is corporate 
bureaucracy, there is Government bureaucracy. It is hard to get 
the bureaucracy to turn on a dime and to move and understand 
there is an urgency.
    But we want to try to at least substantially improve things 
as we go forward on energy development. It is in the Nation's 
interest. We have an energy security need. We have a national 
security need to develop energy. And it is also certainly in 
the interest of the First Americans who live on reservations 
that have great amounts of energy to contribute and whose 
citizens especially need the revenues that come from that 
energy and the jobs. It seems to me, if we can begin to 
streamline this and provide some solutions, it will be 
beneficial in a dozen different ways to this Country.
    Mr. Gray, do you have a final comment?
    Mr. Gray. Yes. Just to add to your suggestion that possibly 
somebody from the Department of Interior is appointed to work 
directly with this Committee on this issue, I would just like 
to suggest that maybe you identify someone from the Department 
of Energy who could work directly with the Committee on this.
    The Chairman. That is a good suggestion.
    I thank you again, and this Committee is adjourned.
    [Whereupon, at 3:47 p.m., the Committee was adjourned.]

                                  <all>

</pre></body></html>
